<html>
<title> - DOMESTIC RESPONSE CAPABILITIES FOR TERRORISM INVOLVING WEAPONS OF MASS DESTRUCTION</title>
<body><pre>[Senate Hearing 107-224]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-224

DOMESTIC RESPONSE CAPABILITIES FOR TERRORISM INVOLVING WEAPONS OF MASS 
                              DESTRUCTION

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON TECHNOLOGY, TERRORISM,
                       AND GOVERNMENT INFORMATION

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 27, 2001

                               __________

                           Serial No. J-107-8

                               __________

         Printed for the use of the Committee on the Judiciary



                                _______

                  U.S. GOVERNMENT PRINTING OFFICE
76-917                     WASHINGTON : 2002

____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman
STROM THURMOND, South Carolina       PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
ARLEN SPECTER, Pennsylvania          JOSEPH R. BIDEN, Jr., Delaware
JON KYL, Arizona                     HERBERT KOHL, Wisconsin
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
JEFF SESSIONS, Alabama               RUSSELL D. FEINGOLD, Wisconsin
SAM BROWNBACK, Kansas                CHARLES E. SCHUMER, New York
MITCH McCONNELL, Kentucky            RICHARD J. DURBIN, Illinois
                                     MARIA CANTWELL, Washington
                      Sharon Prost, Chief Counsel
                     Makan Delrahim, Staff Director
         Bruce Cohen, Minority Chief Counsel and Staff Director
                                 ------                                

   Subcommittee on Technology, Terrorism, and Government Information

                       JON KYL, Arizona, Chairman
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
JEFF SESSIONS, Alabama               JOSEPH R. BIDEN, Jr., Delaware
MITCH McCONNELL, Kentucky            HERBERT KOHL, Wisconsin
                                     MARIA CANTWELL, Washington
                Stephen Higgins, Majority Chief Counsel
                 David Hantman, Minority Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Feinstein, Hon. Dianne, a U.S. Senator from the State of 
  California.....................................................    33
Kyl, Hon. Jon, a U.S. Senator from the State of Arizona..........     1
Sessions, Hon. Jeff, a U.S. Senator from the State of Alabama....     3

                               WITNESSES

Alexander, Yonah, Senior Fellow and Director, International 
  Center for Terrorism Studies, Potomac Institute for Policy 
  Studies, Arlington, VA.........................................    28
Clapper, James, Jr., Lieutenant General, United States Air Force 
  (Retired), Vice Chairman, Advisory Panel to Assess Domestic 
  Response Capabilities for Terrorism Involving Weapons of Mass 
  Destruction, Washington, DC....................................     5
Cordesman, Anthony H., Arleigh A. Burke Chair in Strategy, Center 
  for Strategic and International Studies, Washington, DC........    22

 
DOMESTIC RESPONSE CAPABILITIES FOR TERRORISM INVOLVING WEAPONS OF MASS 
                              DESTRUCTION

                              ----------                              


                        TUESDAY, MARCH 27, 2001

                               U.S. Senate,
        Subcommittee on Technology, Terrorism, and 
                            Government Information,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:10 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Jon Kyl, 
Chairman of the Subcommittee, presiding.
    Present: Senators Kyl and Feinstein.

  STATEMENT OF HON. JON KYL, A U.S. SENATOR FROM THE STATE OF 
                            ARIZONA

    Chairman Kyl. The Subcommittee will come to order. I 
welcome everyone to this hearing of the Subcommittee of the 
Judiciary Committee on Technology, Terrorism, and Government 
Information.
    By way of apology, let me first say that we had three votes 
which delayed the party luncheons, as a result of which some of 
the Senators will be late. I am informed that Senator Feinstein 
has an additional meeting, and therefore she may be quite a 
little bit late. But with that information, I am going to go 
ahead because I don't want to keep all of you waiting.
    At this hearing today, we are going to examine the findings 
of the Congressionally mandated Advisory Panel to Assess 
Domestic Response Capabilities for Terrorism Involving Weapons 
of Mass Destruction, as presented in its latest report entitled 
``Toward a National Strategy for Combating Terrorism.''
    At the dawn of this new millennium, the United States faces 
new challenges to the security of our Nation, our people, and 
interests abroad. We face no peer rival, and our view of the 
horizon is no longer clouded by the once ominous threat of 
either a large-scale nuclear attack on our homeland or a 
massive conventional attack on our European allies.
    Yet, the security our citizens both at home and abroad is 
threatened. The threat no longer derives from a single source, 
but from a myriad of sources, including terrorists 
organizations that increasingly see Americans and their 
interests as their premier targets.
    The means available to terrorist organizations and their 
sponsors are potentially more deadly and catastrophic than 
ever. We have only to look back to October of last year and the 
devastation wrought by two men in a small boat heavily laden 
with conventional explosives that maneuvered alongside the USS 
Cole. Seventeen American sailors perished, with many others 
wounded, and an American war ship was reduced to a crippled 
hulk in just a matter of a few seconds.
    In the 1990's, 6 people were killed and 1,000 were injured 
in bombing of the World Trade Center in New York City. But the 
bombers' goal was to topple the twin towers, which would 
probably have killed tens of thousands of people. Imagine the 
destruction if those responsible for these attacks had been 
more technically proficient or if they had had weapons of mass 
destruction.
    The perpetrators of these attacks do not appear to be 
state-sponsored organizations in the classic sense. Recent 
reports have strengthened the links between the Cole bombing 
and exiled Saudi millionaire Usama Bin Ladin. Although not 
state-sponsored in the classic sense, Bin Ladin is dependent 
upon a variety of states for asylum and protection of his 
assets. The fact that his group is not state-sponsored does not 
mean it is less threatening.
    According to the Director of the National Security Agency, 
Bin Ladin can afford to outfit himself with better and more 
sophisticated communications equipment than most of the 
agencies of the U.S. Government that might be charged with 
countering his efforts.
    According to recent foreign press reports, Bin Ladin's 
financial empire has enabled his supporters to strengthen their 
hold upon the Taliban government of Afghanistan, thereby 
eliminating the likelihood of extradition. If Bin Ladin can 
afford all of this, someday he may even be able to buy a 
nuclear, chemical, or biological weapon and the means to employ 
it.
    The emergence of terrorist groups that are not state-
sponsored does not mean that nations no longer support 
terrorism. For example, Iran continues to be the most active 
state sponsor of terrorism. Tehran already has chemical and 
biological weapons. In fact, nearly all of the seven nations 
that the U.S. identifies as state sponsors of terrorism are 
believed to possess weapons of mass destruction of at least 
some capability.
    Given this state of affairs, what should U.S. strategy be 
and how can we effect it? The Panel to Assess Domestic Response 
Against Terrorism was quick to realize that the presence of the 
word ``Domestic'' in its name did not limit it to the study of 
strictly domestic solutions to strictly domestic weaknesses.
    The members, representing a broad cross-section of local, 
State and Federal expertise, came to the conclusion that much 
of the deterrence and prevention of terrorism must begin on 
foreign soil, with strong partnerships among our allies and an 
equally strong intelligence capability.
    The panel made several recommendations aimed at 
strengthening our ability to both gather intelligence on 
terrorist organizations and share intelligence between agencies 
responsible for countering the terrorist threat. The panel also 
made numerous recommendations designed to improve the 
cooperation between Federal, State and local entities to 
enhance our capability to respond to a catastrophic terrorist 
attack.
    In our first of two panels today, we are pleased to be 
joined by Vice Chairman of the Advisory Panel, Lieutenant 
General James Clapper, who formerly served as Director of the 
Defense Intelligence Agency. The Chairman of the Advisory 
Panel, Governor James Gilmore of Virginia, was invited to 
attend, but could not be here due to a scheduling conflict.
    I might say that we decided to proceed with this hearing 
because it is our intention, both Senator Feinstein and myself, 
to take as much testimony as we can within a period of just a 
few weeks and begin to put together legislation that we can 
actually have an opportunity to run this year with an 
expectation that we could get it passed. We believe that if we 
take the best of the suggestions from this panel and from other 
panels that have addressed the same general subject matter and 
put them together into a package, we can perhaps begin to 
coordinate the efforts much better than they are and at least 
add the legislative perspective to it that we think may be 
required.
    The second panel today includes two of our Nation's 
foremost experts on terrorism and national security. Dr. 
Anthony Cordesman currently serves as the Distinguished Arleigh 
Burke Chair and Senior Fellow at the Center for Strategic and 
International Studies. He has overseen and participated in a 
series of studies on terrorism and asymmetric warfare, and has 
a long history as an analyst of national security issues.
    Dr. Yonah Alexander is a Senior Fellow at the Potomac 
Institute and Director of its International Center for 
Terrorism Studies. He is the founder and editor of 
``Terrorism,'' an international journal.
    I will afford Senator Feinstein the opportunity, if she 
arrives, to fit her statement in wherever we are in the 
testimony, and any member of the Subcommittee will have an 
opportunity to submit their statements for the record.
    [The prepared statement of Senator Sessions follows:]

   Statement of Hon. Jeff Sessions, a U.S. Senator From the State of 
                                Alabama

    I am very glad that Senators Kyl and Feinstein called this hearing 
today. This country faces a real threat. I am afraid that the question 
about whether a chemical, biological, radiological, nuclear, or cyber-
terrorist attack will happen in the United States is less a question of 
whether, than of when. As the anniversary of the most heinous attack in 
America history--the Oklahoma City bombing on April 19, 1995--draws 
near, we remember what terrorism can do to this country. Not only were 
lives lost in that attack, but fear was allowed to rule us. That bomb 
was very simply constructed--just a bunch of diesel fuel and fertilizer 
in a moving van--yet it ripped a building in half, killing 168 people 
and wounding many others.
    Now, imagine a terrorist walking into an airport or football 
stadium or even, God forbid, this building, with a nerve agent like VX. 
With an amount less than a drop of water, that terrorist has a weapon 
to kill even more people than in Oklahoma City. That would be harder to 
detect and even harder to prevent or contain once an attack occurred.
    Worse yet, imagine a coordinated attack from all fronts. First, a 
computer terrorist sabotages U.S. government and military computers, 
shutting down lines of communication and defense. At the same time, he 
strikes civil telecommunications and financial services. Topping all 
that with a traditional military deployment by a rogue state, America 
would have a tremendous and frightening challenge to overcome.
    Luckily, this country is already on the ball. Many agencies such as 
the Department of Defense, the Department of State, the Department of 
the Treasury, the Department of Justice, the Federal Emergency 
Management Agency (FEMA), the Federal Bureau of Investigation, the 
Public Health Service component, and the Department of Energy have all 
taken substantial steps, along with over 50 other organizations 
throughout the U.S. Government, to make sure that a domestic terrorist 
attack does not occur, and if it does, that we have the best ways to 
deal with it. Four different reports, issued by four different groups 
looking specially at this problem, have assessed the threat of domestic 
terrorism and come up with ideas on how to address that threat. Today's 
distinguished panel of witnesses will give us more insight into one of 
these reports--the second in a series of RAND reports issued by the 
Gilmore Commission.
    I agree with all four reports that there is a huge need for greater 
coordination between the responsible agencies and between the federal, 
state, and local entities responsible for detecting, stopping, and 
responding to an attack in their particular community. Each of these 
reports presents a possible but slightly different solution to the 
problem. However, I think we need to really look hard at whether one of 
the four solutions will work best or whether we need a combination of 
all four.
    I also agree with my colleagues here today, Senators Kyl and 
Feinstein, who last session introduced solid legislation aimed at 
finding counter terrorism strategies and solutions. This legislation 
passed the Senate. The bill takes an important first step towards 
solution to this problem.
    First, it is important that we keep Syria and Iran on the Foreign 
Terrorist Organization list. There are indications that both countries 
continue to sponsor terrorist groups with ill will towards the United 
States.
    Second, the reports and task forces required by this bill will 
ensure that we have answers to important questions: (1) how to improve 
the guidelines on recruiting terrorist informants to encourage them to 
spill the beans on their cohorts ; (2) where research and development 
may improve the technologies to combat terrorists on American soil; (3) 
how to get the best information disseminated to the agencies dealing 
with the problem; (4) what needs to be done to stop existing world-wide 
terrorist fund-raising efforts; and (5) how we can improve the 
monitoring of domestic sales and lab handling and storage of biological 
agents and the equipment needed to use them.
    Senator Kyl's and Senator Feinstein's previous bill had the making 
of a crucial first step in the war on terrorists. Another fundamental 
step in domestic preparedness is the continual need to train first 
responders such as fire fighters, police officers, and emergency 
medical crews. Since we do not know where an attack using a weapon of 
mass destruction (WMD) will occur (it could be the Nation's Capital, 
another big urban center, or even in small town America) we need to be 
prepared across the Nation. To accomplish that preparedness means we 
need to train and equip our civilian responders to the highest standard 
possible.
    Traditionally, the military has been responsible for dealing with 
attacks on the United States. However, the military is not and cannot 
be on hand in every community on a 24-hour basis. That's why first 
responders are so important.
    In my home state of Alabama, we have the nation's only Center for 
Domestic Preparedness that trains with the actual chemical and 
biological substances that might be used in an attack. Exercises run in 
the Chemical Training Facility-identical to the training used by our 
military forces at Ft. Leonardwood, Missouri--is the only way to test 
how firefighters, policemen, and other first responders will react 
under pressure, taking away the fear of the unknown that is present 
whenever an invisible hand strikes. Incredibly, this Center -has 
already trained 5,000 first responders, but the nation needs to train 
many, many more. Politicians of every political persuasion have 
recognized the importance of this Center to the overall domestic 
preparedness picture. Our former Attorney General, Janet Reno, called 
the Center a ``crown jewel'' in testimony before Congressional 
Committees.
    In conclusion, I want to again thank Senator Kyl and Senator 
Feinstein for holding this hearing and for developing legislation that 
is an important first step in dealing with the problems.

    Chairman Kyl. So with that, let me introduce our first 
witness, Lieutenant General Clapper, Vice Chairman of the 
Advisory Panel and former Director of the DIA.
    General Clapper, welcome. Thank you for taking time to be 
here. We will place your full statement in the record and 
invite you to make whatever summary remarks you would like to 
make at this time.

  STATEMENT OF LIEUTENANT GENERAL JAMES CLAPPER, JR., UNITED 
 STATES AIR FORCE (RETIRED), VICE CHAIRMAN, ADVISORY PANEL TO 
 ASSESS DOMESTIC RESPONSE CAPABILITIES FOR TERRORISM INVOLVING 
         WEAPONS OF MASS DESTRUCTION, WASHINGTON, D.C.

    General Clapper. Thank you very much, Mr. Chairman. I am 
very pleased to have this opportunity to speak to you as Vice 
Chairman of the Advisory Panel to Assess Domestic Response 
Capabilities for Terrorism Involving Weapons of Mass 
Destruction, less awkwardly known as the Gilmore Commission.
    You have asked that we provide testimony today on the 
findings and recommendations in our second report, which is the 
second of three, and we go out of business at the end of this 
year. I will outline those recommendations and will discuss 
particularly two of them, one dealing with the need for a 
national strategy and the other the need for somebody to be in 
charge.
    You have also asked that I speak to areas of agreement and 
disagreement between the Gilmore Commission and the National 
Commission on Terrorism, chaired by former Ambassador L. Paul 
Bremer, who I might mention is also a member of the Gilmore 
Commission. So we did have fortuitously good cross-over there.
    With respect to strategy, it is our belief, our conviction, 
after looking at this for a couple of years now that there is, 
in fact, no overarching statement of what the United States is 
trying to achieve with its program to combat terrorism.
    Instead of a national strategy, what we really have is a 
loosely coupled set of plans and programs that aim individually 
to achieve certain particular preparedness objectives. Senior 
U.S. officials have stated that several official broad policy 
and planning documents that were published during the prior 
administration, such as the Presidential Decision Directives 39 
and 62, the Attorney General's 1999 Five-year Interagency Plan, 
and the most recent Annual Report to Congress on Combating 
Terrorism, taken as a whole constitute a national strategy.
    Our view is that these documents describe plans, the 
compilation of various programs underway, and some objectives, 
but they do not either individually or collectively constitute 
a national strategy. As a result, we recommended that the 
incoming administration develop such a national strategy by 
laying out national goals for combating terrorism focusing on 
results--that is, outputs rather than process or inputs.
    We made three key assumptions to guide the strategy 
development. The first assumption was that local response 
entities, meaning law enforcement, fire services, emergency 
medical technicians, hospital emergency personnel, public 
health officials, and emergency managers, will always be the 
first, and conceivably only response.
    Second, in the event of a major terrorist attack, however 
that is defined, no single political jurisdiction is likely to 
be capable of responding to such an attack all by itself 
without some outside assistance.
    Third, and perhaps most important, we already have existing 
emergency response and management capabilities, developed over 
many years, for response to natural disasters, disease 
outbreaks, and accidents. Those capabilities should be used as 
a base for enhancing our domestic capability for response to 
terrorist attack.
    I want to highlight some of the attributes of the national 
strategy that we outlined in our report. It should be 
geographically and functionally comprehensive. It should 
address both international and domestic terrorism. That 
distinction, heretofore somewhat nice, neat, separate 
compartments between domestic and foreign, is gradually 
eroding, we believe.
    The national strategy should address the full spectrum of 
the Nation's efforts against terrorism, to include 
intelligence, deterrence, prevention, investigation, 
prosecution, preemption, crisis management, and consequence 
management. The national strategy should apply to the Nation as 
a whole, not just the Federal executive branch, and must 
involve States and communities as essential and equal partners.
    With respect to the issue of placing someone in charge, it 
has been our observation based on a lot of discussion, 
briefings, and travel, that many at the State and local levels 
perceive the structure and processes at the Federal level for 
combating terrorism as uncoordinated, complex, and confusing.
    Our first report included a graphic depiction of the 
numerous Federal agencies and offices within those agencies 
that have responsibilities for combating terrorism. I testified 
this morning before a House panel looking at this and they had 
extracted the graphics from our first report and had them 
displayed in the Committee room, which basically was one 
organizational chart after another of all the departments and 
agencies who in one way or another, one degree or another are 
involved in combating terrorism, a very effective graphic 
depiction.
    Attempts to create a Federal focal point for coordination 
with State and local officials such as the National Domestic 
Preparedness Office have been only partially successful. 
Moreover, many State and local officials believe that Federal 
programs are often created without consulting them. And 
confusion often exists even within the Federal bureaucracy. It 
is our view that the current coordination structure does not 
possess the requisite authority or accountability to make 
policy changes and to impose the discipline necessary among the 
numerous Federal agencies involved.
    So for those and other reasons, we have recommended the 
establishment of a senior-level coordination entity in the 
Executive Office of the President entitled the National Office 
for Combating Terrorism, with responsibility for developing 
domestic and international policy, and for coordinating the 
program and budget of the Federal Government's activities for 
combating terrorism.
    The title of the entity is not as important as its 
responsibilities and authorities, and I should interject here 
since it came up this morning that we had great aversion to the 
term ``czar,'' which is often applied perhaps to such a 
construct, and we would not choose to use that term.
    The responsibilities and functions of this organization 
tethered to the President would be forging a national strategy, 
and this would be, I think, its first and foremost 
responsibility, managing the program and budget by a process of 
certifying or decertifying the budgets of the other agencies 
and departments involved in combating terrorism.
    A subject near and dear to my heart is fostering 
intelligence collection, analysis, and most importantly 
dissemination particularly and especially to State and local 
officials; reviewing plans of State and local authorities to 
ensure synchronicity or coordination with the national 
strategy; coordinating health and medical programs; directing 
research development, test, and evaluation, and developing 
national standards; and serving as sort of the one-stop shop, 
if you will, for information as a clearinghouse for State and 
local officials.
    Two other attributes I want to mention are that we feel 
this entity or office should have political accountability and 
responsibility. The person designed as the focal point to be in 
charge for developing a national strategy and for coordinating 
Federal programs must have this political accountability and 
responsibility. Ergo, our recommendation was that this person 
should be appointed by the President and confirmed by the 
Senate, and would enjoy Cabinet-level rank.
    At the same time, we also would emphasize that this 
organization would not have operational control over Federal 
agency activities. In other words, the execution would still 
remain with the various Government departments and agencies. It 
was not our intent in any way that those departments and 
agencies should abrogate their responsibilities. What we are 
advocating is more coherence, more coordination which would be 
brought about by this office for coordination of 
counterterrorism.
    At the risk of perhaps going where angels fear to tread, I 
also wanted to mention the Congress in this. Its intention, I 
think, has been helpful, but in a sense the Congress has also 
contributed to the executive branch's problems.
    Over the past 5 years, there have been half a dozen 
Congressional attempts to reorganize the executive branch's 
efforts to combat terrorism, all of which failed. None enjoyed 
the support of the executive branch. At least 11 full 
committees in the Senate and 14 full committees in the House, 
as well as their numerous subcommittees, claim to one degree or 
another some oversight responsibility for various aspects of 
programs for combating terrorism.
    Earmarks in appropriations bills created many of the 
Federal Government's specific domestic preparedness programs 
without authorizing legislation or oversight. The huge 
appearing, at least, U.S. budget for combating terrorism is now 
laced with such earmarks which have proliferated in the absence 
of an executive branch strategy.
    The executive branch cannot successfully coordinate its 
programs for combating terrorism alone. Congress, we think, 
must also better organize itself and exercise much greater 
discipline. So we have recommended creation of a joint 
committee, or alternatively separate committees in each House 
somewhat akin to the construct I am used to, the two 
intelligence oversight committees, to pass on executive branch 
requests and to oversee execution of programs that it 
authorizes.
    Obviously, for this to work, other Congressional 
authorizing and appropriations committees would have to defer 
to the joint or the single Committee in each House. We are not 
so naive to think this recommendation is any less difficult 
than the executive branch changes that we are proposing, but it 
is no less needed.
    We also made six specific functional recommendations in the 
following areas, and I will simply tick off the subject matter 
areas rather than dwelling on them, since there is a detailed 
discourse on that in my prepared statement.
    The functions we had in mind for this National office would 
be to foster the collection of intelligence, assessing threats 
and sharing information particularly at the State and local 
level; operational coordination, training, equipping, 
exercising, overseeing and facilitating health and medical 
coordination; research development and promulgation of national 
standards; and providing cyber security against terrorism.
    You asked, sir, for a discussion of the areas of agreement 
and disagreement with the report of the National Commission on 
Terrorism which was chaired by Ambassador Jerry Bremer, who, as 
I said, is on our panel as well.
    First, I would mention that the charters and objectives of 
the Bremer Commission and the Gilmore Commission are for the 
most part different. The Bremer Commission focused on 
international terrorism, while we focused on domestic 
preparedness.
    There are, nevertheless, many congruent areas between the 
two reports. Both agree on the nature of the threat of 
international terrorism, including the potential for more 
attacks inside the borders of the United States. Both panels 
specifically agree that certain measures must be taken to 
improve intelligence collection and dissemination on 
terrorists, including repealing the 1995 Director of Central 
Intelligence guidelines as they apply to recruiting terrorist 
informants, reviewing and clarifying the Attorney General's 
guidelines on foreign intelligence collection and the 
guidelines on general crime racketeering enterprise and 
domestic security terrorism investigations, and directing the 
Department of Justice Office of Intelligence Policy and Review 
not to require a process for initiating actions under the 
Foreign Intelligence Surveillance Act that are more stringent 
than what was actually required by the statute.
    Both panels agree that significant improvements must be 
made in the ability of intelligence and law enforcement 
agencies to collect, analyze, disseminate, and share 
information. Both panels agree that there must be a 
comprehensive strategy to deal with terrorism.
    Both panels agree that the Department of Defense and U.S. 
armed forces may have a major role in preventing or responding 
to a terrorist attack, especially a major one. We likewise 
strongly agree that more planning, coordination, training, and 
exercises need to be conducted to prepare for the possibility 
of major DoD and military involvement.
    The one area, however, on which the two panels disagreed 
had to do with the issue of lead agency. The Bremer Commission 
asserts that a response to a catastrophic attack may require 
the designation of DoD as lead agency. While agree that DoD may 
have, and probably would have a major role in such a 
cataclysmic event, we believe firmly that the military must 
always be directly under civilian control.
    I can speak personally that Governor Gilmore feels 
personally very strongly about this. This was probably the most 
hotly debated and discussed issue in the 2 years of the 
existence of our panel. So as a result, we recommended that the 
President always designate a Federal civilian agency other than 
the Department of Defense as the lead Federal agency.
    Many Americans will not draw the technical distinction 
between the Department of Defense, the civilian entity, and the 
U.S. armed forces, the military entity. Although the Department 
of Defense and every major component of the Department has 
civilian leaders, the perception will likely be that the 
military is in the lead. And in the interest of preserving our 
civil liberties, or even dispensing with the risk of 
jeopardizing civil liberties, it was our conviction after a lot 
of discussion and debate that the lead Federal agency in every 
case should be a genuine civilian element.
    In conclusion, Mr. Chairman, Gilmore panel members are 
convinced that the recommendations that I have outlined here 
briefly are crucial to strengthening the national effort to 
combat terrorism. We need a true national strategy and we need 
somebody in charge. This is not a partisan political issue. We 
have members on our panel who identify with each of the 
parties, virtually all the functional constituencies, and at 
all governmental levels. This is simply something that we 
unanimously agreed that the country needs.
    Contemplating the specter of terrorism in this country is a 
sobering but critically necessary responsibility of government 
officials at all levels and in all branches, as evidenced by 
your interest this afternoon. It is truly a national issue that 
requires synchronization of our efforts vertically among the 
Federal, State and local levels, and horizontally among the 
functional constituent stakeholders.
    The individual capabilities of all critical elements must 
be brought to bear in a much more coherent way than is now the 
case. That fundamental tenet underlies our work over the last 2 
years. We believe that the most imposing challenge centers on 
policy and whether we have the collective fortitude to forge 
change both in organization and process.
    I would respectfully observe that we have studied the topic 
to death and what we need now is action.
    Mr. Chairman, this concludes my statement. I would be 
pleased to address your questions.
    [The prepared statement of General Clapper follows:]

 Statement of James Clapper, Jr., Lieutenant General, U.S. Air Force, 
  Retired, Vice Chairman, Advisory Panel to Assess Domestic Response 
   Capabilities for Terrorism Involving Weapons of Mass Destruction, 
                            Washington, D.C.

    Mr. Chairman, Members of the Subcommittee, I am honored to be here 
today. I come before you as the Vice Chairman of the Advisory Panel to 
Assess Domestic Response Capabilities for Terrorism Involving Weapons 
of Mass Destruction, also known as the ``Gilmore Commission'' (after 
its Chairman, Governor James S. Gilmore, III, of Virginia). Thank you 
for the opportunity to present the views of the Advisory Panel.
    The Advisory Panel was established by Section 1405 of the National 
Defense Authorization Act for Fiscal Year 1999, Public Law 10-261 (H.R. 
3616, 105<SUP>th</SUP> Congress, 2nd Session) (October 17, 1998). That 
Act directed the Advisory Panel to accomplish several specific tasks. 
It said:
    The panel shall----

1. assess Federal agency efforts to enhance domestic preparedness for 
        incidents involving weapons of mass destruction;
2. assess the progress of Federal training programs for local emergency 
        responses to incidents involving weapons of mass destruction;
3. assess deficiencies in programs for response to incidents involving 
        weapons of mass destruction, including a review of unfunded 
        communications, equipment, and planning requirements, and the 
        needs of maritime regions;
4. recommend strategies for ensuring effective coordination with 
        respect to Federal agency weapons of mass destruction response 
        efforts, and for ensuring fully effective local response 
        capabilities for weapons of mass destruction incidents; and
5. assess the appropriate roles of State and local government in 
        funding effective local response capabilities.

    The Act requires the Advisory Panel to report its findings, 
conclusions, and recommendations for improving Federal, State, and 
local domestic emergency preparedness to respond to incidents involving 
weapons of mass destruction to the President and the Congress at three 
times during the course of the Advisory Panel's deliberations-on 
December 15 in 1999, 2000, and 2001.
    Mr. Chairman, you have asked that we provide testimony today on the 
findings and their related recommendations contained in the second 
report of the Advisory Panel, entitled ``Toward a National Strategy for 
Combating Terrorism,'' dated December 15, 2000. I will outline those 
recommendations, and will provide a more detailed description on two of 
them-one dealing with the need for a national strategy, the other on 
the structure of the Executive Branch for dealing with terrorism. You 
have also asked that I note the areas of agreement and disagreement 
that the Gilmore Commission has with the report of the National 
Commission on Terrorism, which was chaired by former Ambassador L. Paul 
Bremer.
   Principal Findings and Recommendations in the Second Annual Report
              a national strategy for combating terrorism
``The United States has no coherent, functional national strategy for 
        combating terrorism; and the next President should develop and 
        present to the Congress a national strategy for combating 
        terrorism within one year of assuming office.''
    Mr. Chairman and Members, the Advisory Panel believes that a truly 
comprehensive national strategy will contain a high-level statement of 
national objectives coupled logically to a statement of the means to be 
used to achieve these objectives. Currently, there is no overarching 
statement of what the United States is trying to achieve with its 
program to combat terrorism. Goals must be expressed in terms of 
results, not process. Government officials have, in the past, spoken of 
terrorism preparedness goals in terms of program execution. A 
comprehensive national strategy will answer the more fundamental and 
important question: To what end are these programs being implemented?
    Instead of a national strategy, the nation has had a loosely 
coupled set of plans and specific programs that aim, individually, to 
achieve certain particular preparedness objectives. Senior U.S. 
officials have previously stated that several official broad policy and 
planning documents that were published in the prior administration-
Presidential Decision Directives 39 and 62, the Attorney General's 1999 
Five-Year Interagency Counterterrorism and Technology Crime Plan, and 
the most recent Annual Report to Congress on Combating Terrorism \1\--
taken as a whole, constitute a national strategy. These documents 
describe plans, the compilation of various programs already under way, 
and some objectives; but they do not either individually or 
collectively constitute a national strategy.
---------------------------------------------------------------------------
    \1\ The Office of Management and Budget, Annual Report to Congress 
on Combating Terrorism, Including Defense against Weapons of Mass 
Destruction/Domestic Preparedness and Critical Infrastructure 
Protection, May 18, 2000.
---------------------------------------------------------------------------
    Although Executive Branch agencies are administering programs 
assigned to them in the various pieces of legislation, the Executive 
Branch, under the former administration, did not articulate a broad 
national strategy that would synchronize the existing programs or 
identify future program priorities needed to achieve national 
objectives for domestic preparedness for terrorism. Moreover, it is our 
view that, given the structure of our national government, only the 
Executive Branch can produce such a national strategy.
    As a result, we recommended that the incoming Administration begin 
the process of developing a national strategy by a thoughtful 
articulation of national goals for combating terrorism, focusing on 
results rather than process. The structure and specifics of the 
national program should derive logically and transparently from the 
goals, not the other way around.

                           BASIC ASSUMPTIONS

    The Advisory Panel agreed on several basic assumptions to guide its 
approach to strategy development. First, ``local'' response entities-
law enforcement, fire service, emergency medical technicians, hospital 
emergency personnel, public health officials, and emergency managers--
will always be the ``first'' and conceivably only response.
    Second, in the event of a major terrorist attack, however defined--
number of fatalities or total casualties, the point at which local and 
State capabilities are overwhelmed, or some other measure--no single 
jurisdiction is likely to be capable of responding to such an attack 
without outside assistance. That assumption is critical to 
understanding the need for mutual aid agreements and coordinated 
operations.
    Third--and perhaps most important--there are existing emergency 
response and management capabilities, developed over many years, for 
responses to natural disasters, disease outbreaks, and accidents. Those 
capabilities can and should be used as a base for enhancing our 
domestic capability for response to a terrorist attack. We can 
strengthen existing capabilities without buying duplicative, cost-
prohibitive new capabilities exclusively dedicated to terrorism.

                MAJOR ELEMENTS OF THE NATIONAL STRATEGY

    The national strategy should be geographically and functionally 
comprehensive. It should address both international and domestic 
terrorism. The distinction between terrorism outside the borders of the 
United States and terrorist threats domestically is eroding. 
International terrorism crosses borders easily and may directly affect 
the American homeland. That was evident in the New York World Trade 
Center bombing in 1993, and more recently in the activities around the 
turn of the century. The terrorist bombings of the U.S. garrison at 
Khobar Towers, Saudi Arabia, the two U.S. embassies in East Africa, and 
the recent USS Cole incident, also illustrate the reach of terrorists 
against U.S. interests and the profound domestic implications they 
pose.
    To be functionally comprehensive, the national strategy should 
address the full spectrum of the nation's efforts against terrorism: 
intelligence, deterrence, prevention, investigation, prosecution, 
preemption, crisis management, and consequence management. Our nation's 
highest goal must be the deterrence and prevention of terrorism. The 
United States cannot, however, prevent all terrorist attacks. When 
deterrence and prevention fail, the nation must respond effectively to 
terrorism, whether to resolve an ongoing incident, mitigate its 
consequences, identify the perpetrators, and prosecute or retaliate as 
appropriate. The national strategy should deal with all aspects of 
combating terrorism and must carefully weigh their relative importance 
for the purpose of allocating resources among them.
    The national strategy should apply to the nation as a whole, not 
just the Federal Executive Branch. The Federal government should lead a 
strategic planning process that involves States and communities as 
essential and equal partners.
    The national strategy must be appropriately resourced, by all 
levels of government, to provide a reasonable opportunity to achieve 
its successful implementation. At the Federal level, that will require 
a closer relationship between the Executive and Legislative Branches. 
Nationally, that will require better coordination with State and local 
governments.

               ARTICULATING THE END STATE: NATIONAL GOALS

    The first step in developing a coherent national strategy is for 
the Executive Branch to define some meaningful, measurable expression 
of what it is trying to achieve in combating terrorism. The Federal 
government's goals have previously been expressed primarily in terms of 
program execution. Administrative measurements alone do not foster 
effective management of a national program.
    The national strategy must express preparedness goals in terms of 
an ``end state'' toward which the program strives. Since there exists 
no ready-made measurement of a country's preparedness for terrorism, 
especially domestically, the Executive Branch must develop objective 
measurements for its program to combat terrorism, to track its 
progress, to determine priorities and appropriate funding levels, and 
to know when the desired ``end state'' has been achieved.
    The nation's strategy for combating terrorism requires results-
based goals for three reasons. First, the programs need an end-state 
goal. Elected and appointed officials from Federal, State, and local 
governments must be able to allocate resources to specific geographic 
regions according to requirements of that region. Resources should be 
allocated to achieve that broadest application for all emergency and 
disaster needs, consistent with preparedness goals. That approach is 
fundamental to the principles of building on existing systems and to 
achieving the maximum possible multipurpose capability.
    Second, programs for combating terrorism need accountability. 
Legislators and public officials, especially elected ones, must have 
some reliable, systematic way of assessing the extent to which their 
efforts and taxpayers' money are producing effective results. The 
performance and results of programs for combating terrorism are 
currently assessed almost solely according to anecdote. The only 
concrete measure available at the moment is the dispersal of Federal 
funds-a process measurement that does not achieve effective strategic 
management.
    Third, programs for combating terrorism need clear priorities. It 
is impossible to set priorities without first defining results-based 
objectives. The essence of any coherent strategy is a clear statement 
of priorities that can be translated into specific policy and 
programmatic initiatives. Priorities are the transmission mechanism 
that connects ends to means.

   FOSTERING THE MEANS OF STRATEGY: PROGRAM STRUCTURE AND PRIORITIES

    Setting priorities is essential in any strategy, but priorities 
require clear, resultsbased objectives. With some meaningful sense of 
objectives, it will be possible to develop coherent priorities and an 
appropriate set of policy prescriptions. For instance, should the 
nation seek a different level of preparedness for large urban centers 
than for rural areas? What should be the relative importance of 
preparing for conventional terrorism, radiological incidents, chemical 
weapons, biological weapons, or cyber attacks? Should the nation seek 
to improve its preparedness more against the types of attacks that are 
most likely to occur, such as conventional terrorist bombings or the 
use of industrial chemicals, or for those that are most damaging but 
less likely to occur, such as nuclear weapons or military-grade 
chemical or biological weapons? With respect to biological weapons, 
which pathogens deserve priority? Should the emphasis be on smallscale 
contamination attacks as opposed to large-scale aerosol releases of the 
worst pathogen types, such as anthrax, plague, and smallpox? What is 
the relative priority for allocating resources to protect critical 
infrastructure, especially from cyber attacks?
    The answers to these and other questions have important 
implications for the allocation of resources for training, equipment 
acquisition, exercises, research and development, pharmaceutical 
stockpiles, vaccination programs, and response plans. A coherent 
national strategy would provide clarity to the allocation of resources 
across the full range of possible activities to combat terrorism. To 
date, these critical resource allocation decisions have been made in an 
ad hoc manner and without reference to meaningful national goals.
    We cannot stress strongly enough that the strategy must be truly 
national in character-not just Federal. The approach to the domestic 
part of the national strategy should, therefore, be ``bottom up,'' 
developed in close coordination with local, State, and other Federal 
entities.
    Mr. Chairman, for those and other reasons, we believe that it is 
time to craft a national strategy for combating terrorism to guide our 
efforts-one that will give our citizens a level of assurance that we 
have a good plan for dealing with the issue; one that will provide 
State and local governments with some direction that will help them 
make decisions that will contribute to the overall national effort; one 
that will let our potential adversaries know, in no uncertain terms, 
how serious we are.

              THE NATIONAL OFFICE FOR COMBATING TERRORISM

``The United States has no coherent, functional national strategy for 
        combating terrorism; and the next President should develop and 
        present to the Congress a national strategy for combating 
        terrorism within one year of assuming office.''
    To many at the State and local levels, the structure and process at 
the Federal level for combating terrorism appear uncoordinated, 
complex, and confusing. Our first report included a graphical depiction 
of the numerous Federal agencies and offices within those agencies that 
have responsibilities for combating terrorism. I have provided 
additional copies of those charts to the Members of the subcommittee as 
one way of illustrating the level of complexity.
    Attempts to create a Federal focal point for coordination with 
State and local officials--such as the National Domestic Preparedness 
Office--have been only partially successful. Moreover, many State and 
local officials believe that Federal programs intended to assist at 
their levels are often created and implemented without consulting them. 
Confusion often exists even within the Federal bureaucracy. The current 
coordination structure does not possess the requisite authority or 
accountability to make policy changes and to impose the discipline 
necessary among the numerous Federal agencies involved.
    For those and other reasons, we recommended the establishment of a 
senior level coordination entity in the Executive Office of the 
President, entitled the ``National Office for Combating Terrorism,'' 
with the responsibility for developing domestic and international 
policy and for coordinating the program and budget of the Federal 
government's activities for combating terrorism. The title of the 
entity is not as important as its responsibilities, the functions that 
it will be called upon to perform, and the structure and authorities 
that we believe, at a minimum, such an entity must have.

                     RESPONSIBILITIES AND FUNCTIONS

    1. National Strategy. Foremost will be the responsibility to 
develop the comprehensive national strategy described above. That 
strategy must be approved by the President and updated annually.
    2. Program and Budget. A concurrent responsibility of the National 
Office for Combating Terrorism will be to work within the Executive 
Branch and with the Congress to ensure that sufficient resources are 
allocated to support the execution of the national strategy. The U.S. 
strategy for deterrence, prevention, preparedness, and response for 
terrorists acts outside the United States, developed under the 
leadership of the Department of State, is comprehensive and, for the 
most part, appropriately resourced. It is on the domestic front that 
much additional effort and coordination will be required. The Executive 
should provide comprehensive information to the Congress to consider in 
the deliberative authorization and appropriations processes. In 
addition to a comprehensive strategy document, supporting budget 
information should include a complete description and justification for 
each program, coupled with current and proposed out-year expenditures.
    3. Intelligence Coordination and Analysis. We recommended that the 
National Office for Combating Terrorism provide coordination and 
advocacy for both foreign and domestic terrorism-related intelligence 
activities, including the development of national net assessments of 
terrorist threats. A critical task will be to develop, in concert with 
the Intelligence Community--including its Federal law enforcement 
components--policies and plans for the dissemination of intelligence 
and other pertinent information on terrorist threats to designated 
entities at all levels of government--local, State, and Federal. To 
oversee that activity, we recommended that an Assistant Director for 
Intelligence in the National Office direct the intelligence function 
for Combating Terrorism, who should be ``dual-hatted'' as the National 
Intelligence Officer (NIO) for Combating Terrorism at the National 
Intelligence Council. That Assistant Director/NIO and staff would be 
responsible for compiling terrorism intelligence products from the 
various agencies, for providing national-level threat assessments for 
inclusion in the national strategy, and for producing composite or 
``fused'' products for dissemination to designated Federal, State, and 
local entities, as appropriate. That person will serve as focal point 
for developing policy for combating terrorism intelligence matters, 
keeping the policymaking and operational aspects of intelligence 
collection and analysis separate. The Assistant Director will also be 
the logical interface with the intelligence oversight committees of the 
Congress. It is, in our view, important to have a senior-level position 
created for this purpose. To assist in this intelligence function, we 
also recommended the establishment of a ``Council to Coordinate 
Intelligence for Combating Terrorism,'' to provide strategic direction 
for intelligence collection and analysis, as well as a clearance 
mechanism for product dissemination and other related activities. It 
should consist of the heads of the various Intelligence Community 
entities and State and local representatives who have been granted 
appropriate security clearance.
    4. Plans Review. We recommended that the National Office for 
Combating Terrorism be given authority to review State and geographical 
area strategic plans, and at the request of State entities, review 
local plans or programs for combating terrorism, for consistency with 
the national strategy. That review will allow the National Office to 
identify gaps and deficiencies in Federal programs.
    5. Proposals for Change. We recommended that the National Office 
for Combating Terrorism have authority to propose new Federal programs 
or changes to existing programs, including Federal statutory or 
regulatory authority.
    6. Domestic Preparedness Programs. The National Office should 
direct the coordination of Federal programs designed to assist response 
entities at the local and State levels, especially in the areas of 
``crisis'' and ``consequence'' planning, training, exercises, and 
equipment programs for combating terrorism. The national strategy that 
the National Office should develop-in coordination with State and local 
stakeholders-must provide strategic direction and priorities for 
programs and activities in each of these areas.
    7. Health and Medical Programs. Much remains to be done in the 
coordination and enhancement of Federal health and medical programs for 
combating terrorism and for coordination among public health officials, 
public and private hospitals, pre-hospital emergency medical service 
(EMS) entities, and the emergency management communities. The National 
Office should provide direction for the establishment of national 
education programs for the health and medical disciplines, for the 
development of national standards for health and medical response to 
terrorism, and for clarifying various legal and regulatory authority 
for health and medical response.
    8. Research, Development, Test, and Evaluation (RDT&E), and 
National Standards. The National Office should have the responsibility 
for coordinating programs in these two areas. The national strategy 
should provide direction and priorities for RDT&E for combating 
terrorism. We believe that the Federal government has primary 
responsibility for combating terrorism RDT&E. Moreover, we have 
essentially no nationally recognized standards in such areas as 
personal protective equipment, detection equipment, and laboratory 
protocols and techniques.
    9. Clearinghouse Function. We recommended that the National Office 
for Combating Terrorism serve as the information clearinghouse and 
central Federal point of contact for State and local entities. It is 
difficult for local jurisdictions and State agencies, even those with 
experience in complex Federal programs, to navigate the maze of the 
Federal structure. The National Office for Combating Terrorism should 
assume that role and serve as the ``one-stop shop'' for providing 
advice and assistance on Federal programs for training, planning, 
exercises, equipment, reporting, and other information of value to 
local and State entities.

                        STRUCTURE AND AUTHORITY

    1. Political Accountability and Responsibility. The person 
designated as the focal point for developing a national strategy and 
for coordinating Federal programs for combating terrorism must have 
political accountability and responsibility. That person should be 
vested with sufficient authority to accomplish the purposes for which 
the office is created and should be the senior point of contact of the 
Executive Branch with the Congress. For these reasons, we recommended 
that the President appoint and the Senate confirm the Director of the 
National Office for Combating Terrorism, who should serve in a 
``cabinet-level'' position.
    2. Program and Budget Authority. The National Office for Combating 
Terrorism should have sufficient budget authority and programmatic 
oversight to influence the resource allocation process and ensure 
program compatibility. That authority should include the responsibility 
to conduct a full review of Federal agency programs and budgets, to 
ensure compliance with the programmatic and funding priorities 
established in the approved national strategy, and to eliminate 
conflicts and unnecessary duplication among agencies. That authority 
should also include a structured certification/decertification process 
to formally ``decertify'' all or part of an agency's budget as 
noncompliant with the national strategy. A decertification would 
require the agency to revise its budget to make it compliant or, 
alternatively, to allow the agency head to appeal the decertification 
decision to the President. This limited authority would not give the 
Director of the National Office the power to ``veto'' all or part of 
any agency's budget, or the authority to redirect funds within an 
agency or among agencies.
    3. Multidisciplinary Staffing. The National Office for Combating 
Terrorism should have full-time multidisciplinary expertise, with 
representation from each of the Federal agencies with responsibilities 
for combating terrorism, and with resident State and local expertise. 
For programs with a domestic focus, the National Office for Combating 
Terrorism must have sufficient resources to employ persons with State 
and local expertise and from each of the response disciplines.
    4. No Operational Control. While the National Office for Combating 
Terrorism should be vested with specific program coordination and 
budget authority, it is not our intention that it have ``operational'' 
control over various Federal agency activities. We recommended that the 
National Office for Combating Terrorism not be ``in charge'' of 
response operations in the event of a terrorist attack. The National 
Office should provide a coordinating function and disseminate 
intelligence and other critical information. Mr. Chairman, I should 
note at this point that the word ``czar'' is inappropriate to describe 
this office. The Director of this office should not be empowered to 
order any Federal agency to undertake any specific activity. With few 
exceptions, we recommended that existing programs remain in the 
agencies in which they currently reside. One notable exception will be 
the functions of the National Domestic Preparedness Office (NDPO), 
currently housed in the Federal Bureau of Investigation. The new office 
should subsume all of the intended functions of the NDPO-coordination, 
information clearinghouse, advice and assistance to State and local 
entities. The National Office for Combating Terrorism should also 
assume many of the interagency coordination functions currently managed 
by the National Security Council office of the National Coordinator for 
Security, Counterterrorism, and Infrastructure Protection. For example, 
the responsibility for coordination of certain functions related to 
combating terrorism-Assistance to State and Local Authorities, Research 
and Development, Contingency Planning and Exercises, and Legislative 
and Legal Issues, among others-will devolve to the National Office for 
Combating Terrorism. We also recommended that the National Office for 
Combating Terrorism absorb certain entities as adjuncts to its office, 
such as the Interagency Board for Equipment Standardization and 
InterOperability.
    5. Advisory Board for Domestic Programs. To assist in providing 
broad strategic guidance and to serve as part of the approval process 
for the domestic portion of strategy, plans, and programs of the 
National Office for Combating Terrorism, we recommended the 
establishment of a national ``Advisory Board for Domestic Programs.'' 
That Board should include one or more sitting State governors, mayors 
of several U.S. cities, the heads of several major professional 
organizations, and a few nationally recognized terrorism subject matter 
experts, as well as senior officials from relevant Federal agencies. 
The President and the Congress should each appoint members to this 
board.

                        ALTERNATIVES CONSIDERED

    Mr. Chairman, the members of the Advisory Panel considered a number 
of alternatives to our recommendation for a National Office of the type 
that I have described, before coming to the unanimous conclusion that 
the path we chose was by far the best of the alternatives. Among others 
considered by the panel was a new Deputy Attorney General, an 
``enhanced'' Federal Emergency Management Agency, the possibility of 
some other Federal agency, or simply trying to improve upon the status 
quo. I will be pleased to answer questions from Members about our 
rationale for discounting those alternatives.

                          CONGRESSIONAL ISSUES

``The Congress shares responsibility for the inadequate coordination of 
        programs to combat terrorism; it should consolidate its 
        authority over programs for combating terrorism into a Special 
        Committee for Combating Terrorism--either a joint committee 
        between the Houses or separate committees in each House--and 
        Congressional leadership should instruct all other committees 
        to respect the authority of this new committee and to conform 
        strictly to authorizing legislation.''

    The Congress's strong interest in, and commitment to, U.S. efforts 
to combat terrorism is readily apparent. The Congress took the 
initiative in 1995 to improve the nation's domestic preparedness 
against terrorism. But the Congress has also contributed to the 
Executive Branch's problems. Over the past five years, there have been 
a halfdozen Congressional attempts to reorganize the Executive Branch's 
efforts to combat terrorism, all of which failed. None enjoyed the 
support of the Executive Branch. At least 11 full committees in the 
Senate and 14 full committees in the House--as well as their numerous 
subcommittees--claim oversight or some responsibility for various U.S. 
Programs for combating terrorism. Earmarks in appropriations bills 
created many of the Federal government's specific domestic preparedness 
programs without authorizing legislation or oversight. The rapidly 
growing U.S. budget for combating terrorism is now laced with such 
earmarks, which have proliferated in the absence of an Executive Branch 
strategy. The Executive Branch cannot successfully coordinate its 
programs for combating terrorism alone. Congress must better organize 
itself and exercise much greater discipline.
    The creation of a new joint committee or separate committees in 
each House is necessary to improve the nation's efforts to fight 
terrorism. The committee should have a substantial standing staff. The 
new National Office for Combating Terrorism must establish a close 
working relationship with the committee, and propose comprehensive and 
coherent programs and budget requests in support of the new national 
strategy. The new joint or separate committee should have the authority 
to dispose of the Executive Branch request and to oversee the execution 
of programs that it authorizes. For this to work, other Congressional 
authorizing committees with an interest in programs for combating 
terrorism must recognize the concurrent, consolidated authority of the 
joint or separate committee; and relevant appropriations committees 
must exercise restraint and respect the authorizing legislation of the 
new structure. We recognize that this task is no less daunting than the 
Executive Branch reorganization that we propose above, but it is no 
less needed.

                  SPECIFIC FUNCTIONAL RECOMMENDATIONS

    The focus of the Advisory Panel continues to be on the needs of 
local and State response entities. ``Local'' response entities--law 
enforcement, fire service, emergency medical technicians, hospital 
emergency personnel, public health officials, and emergency managers--
will always be the ``first response,'' and conceivably the only 
response. When entities at various levels of government are engaged, 
the responsibilities of all entities and lines of authority must be 
clear.
    1. Collecting Intelligence, Assessing Threats, and Sharing 
Information. The National Office for Combating Terrorism should foster 
the development of a consolidated all-source analysis and assessment 
capability that would provide various response entities as well as 
policymakers with continuing analysis of potential threats and broad 
threat assessment input into the development of the annual national 
strategy. That capability should be augmented by improved human 
intelligence collection abroad, more effective domestic activities with 
a thorough review of various Federal guidelines, and reasonable 
restrictions on acquisition of CBRN precursors or equipment. The 
National Office should also foster enhancements in measurement and 
signature intelligence, forensics, and indications and warning 
capabilities. To promote the broadest possible dissemination of useful, 
timely (and if necessary, classified) information, the National Office 
should also oversee the development and implementation of a protected, 
Internet-based single-source web page system, linking appropriate 
sources of information and databases on combating terrorism across all 
relevant functional disciplines.
    2. Operational Coordination. The National Office for Combating 
Terrorism should encourage Governors to designate State emergency 
management entities as domestic preparedness focal points for 
coordination with the Federal government.
    The National Office should identify and promote the establishment 
of singlesource, ``all hazards'' planning documents, standardized 
Incident Command and Unified Command Systems, and other model programs 
for use in the full range of emergency contingencies, including 
terrorism. Adherence to these systems should become a requirement of 
Federal preparedness assistance.
    3. Training, Equipping, and Exercising. The National Office for 
Combating Terrorism should develop and manage a comprehensive national 
plan for Federal assistance to State and local agencies for training 
and equipment and the conduct of exercises, including the promulgation 
of standards in each area. The National Office should consult closely 
with State and local stakeholders in the development of this national 
plan. Federal resources to support the plan should be allocated 
according to the goals and objectives specified in the national 
strategy, with State and local entities also providing resources to 
support its implementation.
    4. Health and Medical Considerations. The National Office for 
Combating Terrorism should reevaluate the current U.S. approach to 
providing public health and medical care in response to acts of 
terrorism, especially possible mass casualty incidents and most 
particularly bioterrorism. The key issues are insufficient education 
and training in terrorism-related subjects, minimum capabilities in 
surge capacity and in treatment facilities, and clear standards and 
protocols for laboratories and other activities, and vaccine programs. 
A robust public health infrastructure is necessary to ensure an 
effective response to terrorist attacks, especially those involving 
biologic agents. After consultation with public health and medical care 
entities, the National Office should oversee the establishment of 
financial incentives coupled with standards and certification 
requirements that will, over time, encourage the health and medical 
sector to build and maintain required capabilities. In addition, 
Federal, State, and local governments should clarify legal and 
regulatory authorities for quarantine, vaccinations, and other 
prescriptive measures.
    5. Research and Development, and National Standards. The National 
Office for Combating Terrorism should establish a clear set of 
priorities for research and development for combating terrorism, 
including long-range programs. Priorities for targeted research should 
be responder personnel protective equipment; medical surveillance, 
identification, and forensics; improved sensor and rapid readout 
capability; vaccines and antidotes; and communications 
interoperability. The National Office must also coordinate the 
development of nationally recognized standards for equipment, training, 
and laboratory protocols and techniques, with the ultimate objective 
being official certification.
    6. Providing Cyber Security Against Terrorism. Cyber attacks inside 
the United States could have ``mass disruptive,'' even if not ``mass 
destructive'' or ``mass casualty'' consequences. During the coming 
year, the Advisory Panel will focus on specific aspects of critical 
infrastructure protection (CIP), as they relate to the potential for 
terrorist attacks. In our discussions thus far, we have identified 
several areas for further deliberation, including CIP policy oversight; 
standards; alert, warning, and response; liability and other legal 
issues, and CIP research. We will make specific policy recommendations 
in our next report.

  Areas of Agreement and Disagreement with the Report of The National 
                        Commission on Terrorism

    Mr. Chairman, the charters and objectives of the Bremer Commission 
and the Gilmore Commission are, for the most part, very different. The 
Bremer Commission focused on international terrorism. The Gilmore 
Commission's clear mandate is on domestic preparedness-deterring, 
preventing, and responding to terrorist incidents inside the borders of 
the United States.
    There are, nevertheless, several overlapping areas of interest 
between the two reports and the attendant findings and recommendations.
    Both panels agree on the increasing nature of the threat of 
international terrorism, including the potential for more attacks from 
international groups inside the borders of the United States.
    Both panels specifically agree that certain measures must be taken 
to improve intelligence collection and dissemination on terrorists, 
including:

<bullet> Repealing the 1995 Director of Central Intelligence Guidelines 
        as they apply to recruiting terrorist informants
<bullet> Reviewing and clarifying, as may be indicated, the Attorney 
        General's Guidelines on Foreign Intelligence Collection and the 
        Guidelines on General Crime, Racketeering Enterprise, and 
        Domestic Security/Terrorism Investigations
<bullet> Directing the Department of Justice Office of Intelligence 
        Policy and Review not to require a process for initiating 
        actions under the Foreign Intelligence Surveillance Act that 
        are more stringent than those required by the statute

    Both panels agree that significant improvements must be made in the 
ability of intelligence and law enforcement agencies to collect, 
analyze, disseminate and share intelligence and other information more 
effectively.
    Both panels agree that there must be a comprehensive strategy or 
plan for dealing with terrorism, including the ways in which both the 
Executive Branch and the Congress develop and coordinate program and 
budget processes.
    Both panels agree in principal that the Department of Defense (DoD) 
and U.S. Armed Forces may have a major role in preventing or responding 
to a terrorist attack, especially one involving a chemical, biological, 
radiological or nuclear device. We likewise strongly agree that 
insufficient planning, coordination, training, and exercises have been 
developed and implemented for the possibility of major DoD and military 
involvement. The one area in which we disagree has to do with ``lead 
agency.'' The Bremer Commission suggests that a response to a 
catastrophic attack may indicate the designation of DoD as Lead Agency. 
While we agree that DoD may have a major role, we firmly believe that 
the military must always be directly under civilian control. As a 
result, we recommend that the President always designate a Federal 
civilian agency other than the Department of Defense (DoD) as the Lead 
Federal Agency. Many Americans will not draw the technical distinction 
between the Department of Defense-the civilian entity-and the U.S. 
Armed Forces-the military entity. Although the Department of Defense 
and every major component of that department have civilian leaders, the 
perception will likely be that ``the military'' is in the lead. This 
recommendation does not ignore the fact that the DoD, through all of 
its various agencies-not just the Armed Forces-has enormous resources 
and significant capabilities for command, control, communications, 
intelligence, logistics, engineer, and medical support and may play a 
major role in response to a terrorist attack, especially one with 
potentially catastrophic consequences. Those resources can still be 
brought to bear but should, in our view, always be subordinated to 
another civilian agency.

                                Summary

    Mr. Chairman and Members of the subcommittee, the members of the 
Advisory Panel to Assess Domestic Response Capabilities for Terrorism 
Involving Weapons of Mass Destruction are convinced that the essence of 
its recommendations are essential to the national effort to combat 
terrorism: the promulgation of a truly national strategy; the 
appointment of a senior person at the Federal level who has the 
responsibilityimportantly, who can be seen as having the 
responsibility-for coordinating our national efforts; improvements in 
the way Congress addresses this issues; and the implementation of the 
functional recommendations dealing with:
<bullet> improving intelligence, threats assessments, and information 
        sharing;
<bullet> better planning, coordination and operations;
<bullet> enhanced training, equipping, and exercising;
<bullet> improving health and medical capabilities;
<bullet> promoting better research and development and developing 
        national standards;
<bullet> enhancing efforts to counter agroterrorism; and
<bullet> improving cyber security against terrorism.
    With the exception of the one dissent on the issue of a lead role 
for the military, our recommendations are as firmly unanimous as we 
believe that they are reasonable and specific.
    This is not a partisan political issue. It is one that goes to the 
very heart of public safety and the American way of life. We have 
members on our panel who identify with each of the major national 
political parties, and represent views across the entire political 
spectrum. We urge Members on both sides of the aisle, in both Houses of 
the Congress, to work with the Executive Branch to bring some order to 
this process and to provide some national leadership and direction to 
address this critical issue. Thank you again for this opportunity.

    Chairman Kyl. Thank you very much, General. There is so 
much that we will get into as we pull pieces out of your report 
that we think might help us to legislate in the area.
    Let me first of all address something that you said because 
I think it is recognized by all of us here in Congress. We have 
talked about it, that our failure to organize Congress in a 
coherent and focused way on the problem is somewhat a mirror 
image of our view that the administration hasn't focused very 
well either.
    It might be the fact that we have the same kind of 
operational issues; that is to say, our appropriations people 
are the operational group for funding. The Judiciary Committee, 
of which this is a subset, is the operational group with 
respect to changing the law and evidentiary gathering or 
sharing, and so on. The Intelligence Committee, of which I am a 
member, has certain other operational functions.
    However, that isn't to suggest that we couldn't create a 
select Committee along the lines of the Intelligence Committee 
which would pluck people from each of those operational 
committees to provide the same kind of oversight that you are 
suggesting would be appropriate at the executive level, and I 
think that is something that we are going to try to pursue.
    Let me just ask you this general question to begin. When 
people think of trying to prepare for terrorism, we divide the 
issue into two parts; No. 1, preventing it, the intelligence-
gathering, the other kinds of things that we will talk a little 
bit more about, and then the aftermath, the response.
    As to that second aspect of it, there seems to be a sense, 
at least in the people that I have talked to, that while it is 
inevitable that there will be terrorist actions here in the 
United States, and while we can generally try to prepare at 
least the first responders in our largest communities on how 
basically to respond to these kinds of emergencies and perhaps 
even given them some equipment that would be unique to the 
kinds of challenges they might fact, the reality is that the 
country is so big, the opportunities so great in so many 
different places that it would be impossible to adequately 
prepare in every potential community for every potential 
threat. Therefore, there seems to be just sort of a general 
throwing up of the arms of what can we really do.
    How do you respond to that sense of almost a sense that we 
really can't do much about it if, in fact, the terrorist event 
occurs, except to have some general agency in Washington that 
would direct the response of the local entities to the extent 
they needed help?
    General Clapper. Well, sir, I think there are capabilities 
already resident in the Government which can be embellished, 
coordinated better, where we can be certainly in a better 
posture to respond. I think more can be done from an 
intelligence perspective in the context of prevention.
    A lot of great work is going on as we speak. I think the 
CIA and the FBI--I discussed this earlier today--have made 
giant strides in their recognition of the fact that the 
jurisdictional boundaries are not always respected by 
terrorists.
    If, in fact, our ability to detect and preempt an attack 
fail, then I think there is more that can be done to respond. 
What we have in mind here are exercises, training, equipment, 
standards, medical coordination. There is a lot of just sort of 
grunt work that if the commitment is made to do it could be 
done which would put us in a better posture to respond.
    To say that if we spend ``x'' billions of dollars or take 
some sort of administrative action, that that will provide an 
iron-clad guarantee to the citizenry that we will never be 
confronted with a terrorist attack is obviously unrealistic. 
But we can certainly do more to posture ourselves to detect the 
potential for terrorism, acknowledging the fact that in the 
context of terrorism we are always going to be dealing with 
ambiguous intelligence, but also be prepared to respond.
    Now, the reason this is important, in my view, is because 
if we do that, that in itself serves as a form of deterrence. 
If we have a capability after the fact, for example, the 
forensic capability to determine a return address, to use the 
phrase, of a terrorist and the terrorist knows that and that we 
will, if we determine who did it, reach out and touch, that has 
a very compelling message and, as I say, serves as a deterrent.
    So I think there are things we can do to put ourselves in a 
better posture, but to say that that will ensure that we are 
never attacked, no, sir, we can't do that.
    Chairman Kyl. Well, I think there is--I don't want to use 
the word a sense of fatalism, which is what I started to say 
before, but a sense that while you can train to a certain level 
to respond, once it has gotten to that point our abilities are 
significantly limited. That is why I tend to focus, plus the 
fact that this committee's jurisdiction is more focused on the 
prevention side, the intelligence-gathering, the intelligence-
sharing, and so on.
    I would like to get to some of your recommendations with 
respect to sharing of intelligence which you just alluded to 
between the FBI and the CIA. In this country, of course, the 
FBI is much more limited in what it can do than the CIA would 
be in gathering intelligence abroad, for example, and that puts 
some limits on what the FBI feels it can share, particularly if 
it has got an ongoing investigation in terms of what it can 
share with the CIA or with other agencies.
    Would you speak to that and the recommendations of the 
panel?
    General Clapper. Well, sir, I don't know that I have 
anything new and profound and dramatic, other than to endorse 
what is already going on. An example is the formation and 
organization of the Counterterrorism Center, which is an 
intelligence community entity which involves all the 
intelligence community agencies, to include the FBI, which is a 
structural mechanism to ensure visibility and coordination 
between and among the intelligence agencies.
    The important thing to me is that I think we have to be 
mindful and sensitive to the legal boundaries between the 
purview of the FBI in collecting domestic intelligence and the 
purview of the intelligence community in collecting and using 
foreign intelligence, and the relationship of those two 
activities as it applies to protection of our civil liberties, 
et cetera.
    So I think those sensitivities have to be attended to, but 
at the same time we need to ensure that the information baton 
is not dropped as it is handed off in the case of terrorism 
which originates overseas from a foreign source but is reaching 
out and touching us domestically in the United States. I think 
the mechanisms and the structures and organizations and the 
processes that the FBI and CIA have come up with go a long way 
toward doing that.
    An issue where I think we can improve is in the area of 
dissemination. I think there are mechanisms that we can 
establish whereby certain State and local officials in certain 
conditions should be afforded access to any of this 
intelligence if it affects their jurisdiction.
    In my active duty days as an intelligence officer, I was 
involved in or presided over many, many intelligence exchanges 
with our friends and allies. It seems to me if we can build 
mechanisms to do that, we can certainly build mechanisms 
whereby intelligence can flow to, say, State Governors or the 
senior emergency planner in each State or other senior fire, 
rescue, et cetera, people who need to have access to that kind 
of information. Now, if that entails some sort of a special 
classification system or whatever, then that is fine. We should 
do that. We have it within our capability and it is strictly 
essentially a policy issue.
    Another thing I have been a proponent of is capitalizing on 
a system I think you may be familiar with, sir, in the 
intelligence community called InteLink, which is roughly 
analogous to the intelligence community's very own internet. I 
have been a proponent for exporting this same kind of thing to 
the so-called first responder community on a selected 
capability.
    One of the recurrent themes that we have heard in our 
dialogs with State and local people over the last couple of 
years is a hunger or thirst or requirement for threat 
information, and we have made some recommendations on how we 
think that can be effected. So I think in the areas of 
coordination between the two agencies, focusing more on the 
analytic capability, and most importantly of all, I think, is 
disseminating information, where appropriate, to selected State 
and local officials.
    Chairman Kyl. Let me just ask you two more questions here, 
both related to that. Last year, Senator Feinstein and I both 
cosponsored a bill that would have clarified current law 
regarding the ability of the FBI and the Justice Department to 
share certain criminal wiretap information pertaining to 
terrorism with the CIA and other Government agencies.
    Did the Commission discover any instances where law 
enforcement information was not shared due to legal 
interpretations about the FBI and Justice Department's ability 
to share information with other Government agencies?
    General Clapper. Sir, I can't off the top of my head come 
up with specific cases in point. I will tell you, though, that 
we heard in the case of the application of the FISA law where 
it was the feeling of some that although the requests for FISA 
authorizations were not turned down, the bar was set pretty 
high for them to even be entered into in the first place. That 
is the genesis of the recommendation that I mentioned earlier 
in my oral statement about not going beyond the provisions of 
what is in the statute.
    I might also comment on the DCI guidelines that were 
promulgated in about the 1995 timeframe. I was a member of the 
Downing Assessment Task Force that investigated the Khobar 
Towers bombing in 1996, which parenthetically was an epiphany 
experience for in terms of when I actually got religion about 
terrorism and what it can do.
    I discovered a whole host of both administrative and 
legislatively derived restrictions and rules on the kinds of 
people who can be recruited to collect information. Each one of 
these is well-intended and probably came out of some abuse, at 
least as viewed by some, of engaging some nefarious person to 
collect information on nefarious activities.
    The impact, though, on the collector force, if I could call 
it that, is kind of chilling because of this litany of 
restrictions that apply to the collection of foreign 
intelligence. So the set of recommendations we made about 
looking at all these rules and regulations as they pertain to 
the collection of information on terrorism--both we and other 
panels, particularly Ambassador's panel, have strongly urged 
review and in some cases relaxation of some of these 
strictures.
    Chairman Kyl. Let me just follow up with a question on that 
precise point. Former Director Woolsey, a member of that panel, 
drew the distinction between recruitment of agents against 
another government and recruitment of agents or sources with 
respect to terrorism. That commission didn't recommend a 
relaxation of the standards as opposed to recruitment against 
another government, but with respect to terrorism made the 
point that you are dealing with, by definition, a group of 
people who have nefarious backgrounds and those restrictions 
should be relaxed.
    Do you generally concur with that personally and is that 
the view of the panel?
    General Clapper. Yes, sir, I do, and it is the view of the 
panel. I would cartoon this a little bit, but I have said in 
other fora that if you want to restrict yourself to the likes 
of Mother Teresa and that is who you are going to recruit 
information from, then that will certainly shape the kind of 
information you get.
    We have to be prepared to deal with very nasty, nefarious 
people who by definition do bad things. And if we want to have 
any hope of gaining insight into what they are doing, then we 
are going to have to take the risk that we will, in fact, 
engage with some pretty nasty people. So the short answer is 
yes.
    Chairman Kyl. Did your panel acquire any information which 
would be useful to share with us in a closed setting, any 
specific examples or specific conversations with people that 
would be useful to us that we could talk about?
    General Clapper. Yes, sir, we could, and I would recommend, 
to take advantage of this dual membership of Ambassador Jerry 
Bremer, that he would be involved in those discussions.
    Chairman Kyl. I think we would like to call upon you to get 
your advice on that because when Senator Feinstein and I put 
together our bill at the end of last year, we originally had 
that recommendation in the bill and due to opposition from at 
least one member of this committee, that provision was dropped. 
So I think we need to hone in on that.
    There is a lot more I could get into, but I really want to 
hear from our second panel, as well, and I don't know when we 
are going to be having the next vote. So let me offer an 
opportunity for you to add anything else you would like to add 
in writing. We will leave the time of this hearing open for, 
say, 3 days should you want to do that or should any member of 
the Subcommittee wish to ask you a question and have you 
respond to it.
    I really appreciate your testimony here, and we will be 
looking forward to getting back with you and Governor Gilmore 
when we begin to put our legislation together.
    Thank you very much, General Clapper.
    General Clapper. Thank you, sir.
    Chairman Kyl. Let me ask our second panel if they would 
please come forward.
    As I said earlier, our second panel is made up of 
distinguished scholars: Dr. Anthony Cordesman, of the Center 
for Strategic and International Studies, and Dr. Yonah 
Alexander, of the Potomac Institute.
    Both of you gentlemen bring a wealth of expertise on the 
subject of terrorism and I personally thank you very much for 
your willingness to appear before the subcommittee.
    Dr. Cordesman, let's begin with you. As I indicated 
earlier, we will make your prepared remarks a part of our 
record, and if you would like to summarize those remarks 
without any time limitation I would be happy to receive that at 
this time.

 STATEMENT OF ANTHONY H. CORDESMAN, ARLEIGH A. BURKE CHAIR IN 
   STRATEGY, CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES, 
                        WASHINGTON, D.C.

    Mr. Cordesman. Thank you very much, Senator, and I thank 
the Subcommittee for the opportunity to testify this afternoon. 
I do have some prepared remarks and I appreciate having them 
included in the record. I know you have a lot of questions, so 
let me begin with a few brief introductory remarks.
    In the work that we did on this subject in the CSIS, we 
encountered a number of problems that I think you are going to 
have to address over the next few years. One was the decoupling 
of asymmetric warfare and terrorism. This was much less 
apparent in the Department of Defense than in the other 
branches of Government, but if you look at the record, you find 
again and again the conclusion is drawn that because today's 
terrorists are not supported by states, they will not use 
biological or nuclear weapons or use advanced technology 
effectively in ways which could saturate response capabilities 
at the Federal, State, and local level.
    But as you mentioned at the beginning of this hearing, we 
are also dealing with states like North Korea, Iraq, and Iran, 
and there will be more in the future. And I think by sizing so 
much of our response effort around terrorists without state 
support, we may risk creating a response and intelligence 
effort which deals with the wrong threat and perhaps the less 
important threat.
    This permeates a lot of what goes on in individual civil 
agencies. It is striking that we are spending some $11 billion 
trying to deal with the threat of counterterrorism on the 
record, but when you disaggregate that money, a good $7 billion 
of it goes to the physical protection of Federal facilities and 
of U.S. military overseas, and the actual budget going into 
dealing with counterterrorism is often very limited.
    I think one thing that is also striking is the tendency to 
freeze our perceptions around today's technology. We do not at 
this point in time face a growing threat statistically in terms 
of the number of attacks or casualty levels, but we do face a 
radical process of technological change.
    One aspect of this is attacks on information systems, the 
growing vulnerability of a more integrated infrastructure. A 
key area is the risk of biotechnology and biological weapons, 
which is an area where many countries, and indeed many well-
organized terrorist movements in the future may be able to use 
advances in biotechnology or food processing equipment or 
pharmaceuticals, to use methods of attack which frankly we are 
not even preparing for because the biological threats we deal 
with are the ones fundamentally we already understand. We also 
face the problem over time that nuclear weapons or nuclear 
devices may become more available. We have not really looked at 
those risks.
    There is another problem that strikes me. It is so easy to 
talk about strategy and organization that often we do not look 
at the problem of vulnerability. Yet, vulnerability is changing 
along with the methods of attack. Our vulnerability in terms of 
information systems is one example. Our vulnerabilities in 
terms of specific types of biological attack and nuclear attack 
is another.
    We tend to warn in very broad, generic terms about methods 
of attack, but our data on weapons effects often date back to 
the early 1970's. In some cases like biological weapons, I can 
recognize them because I was then the DRPA program manager for 
biological weapons, and it is very disturbing to see them 
repeated some 30 years later when at least then we knew how 
uncertain and unreliable many of these data were. If we tailor 
our response around that kind of planning, we risk providing 
the wrong templates and the wrong models at the Federal, State, 
and local level.
    Last, let me make a point based, I think, on all too much 
experience in Washington. I think you yourself can remember 
previous calls for strategy and legislation that we needed to 
have a national strategy document, and that there should be a 
Department of Defense strategy document. Well, those documents 
are issued every year. No one knows what they mean, no one uses 
them, no one can figure out what their impact is on a single 
program or a single area of our budget. We have had a drug 
czar, and whether or not that has really shaped effective 
programs is, to put it mildly, debatable.
    The point I would raise in closing is this: Unless you 
really concern yourself about developing effective future-year 
programs, program budgets, clear ways to assess the 
effectiveness of programs in intelligence, defense, and 
response, both in terms of foreign intelligence and the fusion 
of law enforcement, we risk doing what we always do in 
Washington. We mandate another strategy document; we put 
someone in charge of something or we create at least a new 
office somewhere in the Federal Government. And 2 years later, 
none of us can figure out what we accomplished.
    The old routine in Washington that you have to follow the 
money is just as important in intelligence, counterterrorism, 
and dealing with weapons of mass destruction as it is in any 
other area.
    Thank you.
    [The prepared statement of Mr. Cordesman follows:]

Statement of Anthony H. Cordesman, Arleigh A. Burke Chair in Strategy, 
    Center for Strategic and International Studies, Washington, D.C.

    ``Terrorism'' is a topic that arouses so much fear and revulsion 
that there is a natural tendency to ``cry wolf,'' and to confuse the 
potential threat with one that is actually occurring. Similarly, any 
discussion of the new threats posed by weapons of mass destruction and 
information warfare involves threats that are so serious that there is 
an equal tendency to respond like Chicken Little and worry that the sky 
is falling.
    This scarcely means we should not be worried about terrorism. The 
potential threats to our society are all too real. Democratic societies 
are inherently vulnerable. They place few controls over their borders, 
their citizens, or foreigners who have actually entered their 
territory. This is particularly true of the US, and there are many 
vulnerable points in our social structure and economy that foreign 
governments and extremist movements, domestic extremists and the 
mentally ill can attack.
    There equally are good reasons to be increasingly concerned about 
new forms of asymmetric warfare and terrorism, and the use of new and 
more lethal forms of technology.
    Yet, there are equally good reasons to be careful about 
exaggerating the threat, and being careless about the way we define it. 
We can improve intelligence, defense, and response in many ways. We can 
anticipate future risks, even if we cannot predict the future. We do, 
however, have limited resources and competing priorities, and we face 
daunting uncertainties about the nature of the problem terrorism poses 
to our security.

                    Crying Wolf Meets Chicken Little

    It is not easy to characterize the threat - at least in 
unclassified terms. There are grave weaknesses and shortcomings in the 
statistics that the US government makes publicly available on 
terrorism. We do not have an adequate picture of the number, type, and 
seriousness of domestic incidents, and it is often difficult to 
separate out criminal activity, threats, actual action by domestic 
terrorists, and the actions of mentally disturbed individuals.
    The data the US government publishes on international terrorist 
activity also has many defects. Much of it is highly over-aggregated, 
and does not provided anything approaching sophisticated pattern 
analysis. We stress international terrorism, but ignore largely foreign 
domestic violence that may generate terrorism in the future. We tend to 
demonize known terrorist groups, but ignore or underplay the capability 
of foreign states to conduct covert operations or use proxies to do so.
    We exaggerate the existence of foreign networks, such as Usama Bin 
Ladin, and understate the risk that individual terrorist elements may 
lash out against us in ways we do not expect. Much of our analysis is 
grossly ethnocentric: It assumes that we are the key target of attacks 
which generally grow out of theater tensions and conflicts where we 
become a target--if at all--because of our ties to allies and 
peacekeeping missions.
    The fact is, however, that if one looks at the recent patterns in 
terrorism, the US is no more subject to such attacks today--whether 
measured in numbers of incidents or casualties--than in the past. The 
net threat also remains a small one in actuarial terms. The word 
``terrorism'' may trigger a great emotional reaction, but actual 
casualties and losses are almost actuarially insignificant. Far more 
people die of traffic accidents on a bad weekend than dies annually of 
terrorism.
    The idea that the end of the Cold War has somehow created a more 
unstable and violent world is a myth. The world is, has always been, 
and will remain a violent place. According to the Department of 
Defense, there have been some 20-30 serious regional conflicts and 
civil wars going on every day of every year since the end of World War 
II. We did indeed relate many of these conflicts to the Cold War while 
it was going on, but in truth, most such conflicts dragged in the 
superpowers and were not caused by them.
    With the exception of the Balkans, we do not see new major regional 
patterns of violence we can relate to the Cold War. In fact, the end of 
the Cold War has simply allowed us to focus on the broad realities of 
ongoing global violence rather than a single threat.
    We need to be equally careful about exaggerating the new trends in 
technological vulnerability. Some of these trends are very real, but 
our critical infrastructure has always been vulnerable. Nature and 
chance have shown that repeatedly, and studies done back in the 1950s 
and 1960s showed how limited attacks--then postulated to be by 
attackers like the Soviet Spetsnaz--could cripple our utilities, 
paralyze critical military installations, or destroy our continuity of 
government. We have always been vulnerable to a truly well-organized 
terrorist or covert attack.
    The fact that there are real wolves in the world, and that the sky 
can fall--at least--to the extent that far more serious damage is 
possible than we have ever suffered from in the past--is not a reason 
to cry wolf or play the role of chicken little.
             The Changing Face of Terrorism and Technology
    In saying this, I am all too well aware that no victim of 
terrorism, or their loved ones, are going to be consoled by the fact 
that they are a relatively small statistic. The political symbolism of 
successful terrorist attacks is also often far greater than the 
casualties, and even an empty threat can help to undermine the fabric 
of social trust upon which our democracy is based.
    Equally important, the fact we have not yet encountered an attack 
in the US as serious as the strikes on our Embassies in Kenya and 
Tanzania, or as potentially threatening as Aum Shinrikyo, is in no way 
a guarantee for the future. Rather than exaggerate current threats, we 
need to be very conscious of the fact that the nature and seriousness 
of the threat can change suddenly and with little warning.
    Let me give some specific examples:
<bullet> At present the US government focuses most of its intelligence 
        analysis, defense planning and response, around a relatively 
        narrow definition of terrorism. It focuses on independent 
        terrorist groups, and not on the threat states can pose in 
        asymmetric warfare. Yet, it is states that have the most access 
        to weapons of mass destruction--particularly biological and 
        nuclear weapons--and which have the most capability to launch 
        sophistication attacks on our information systems.
    We face current potential threats from nations like Iran, Iraq, 
Libya, and North Korea. We can face new threats as a result of our 
regional alliances and commitments every time a major conflict, crisis, 
or peace-keeping activity takes place.
    Acts can come in the context of over asymmetric warfare, covert 
state-launched attacks, or the use of terrorist and extremist groups as 
proxies. Attacks can be made on our allies, our forces and facilities 
overseas, on US economic interests, or on our own territory. They can 
involve attackers with very different values, escalation ladders and 
perceptions and who lash out in a crisis.
    This is also one area where the world has really changed since the 
end of the Cold War. We have always been a natural target because of 
the sheer scale of our global commitments and interest. Now, however, 
there is no Soviet Union our potential opponents can turn to, and they 
have no way of offsetting our advantage in conventional warfare.
    We need to bridge the gap between the way in which the US 
government prepares for asymmetric warfare and to deal with the threat 
of terrorism--not only in terms of intelligence analysis, but our 
defense and response planning for Homeland Defense. We also must 
include intelligence analysis of capabilities and not just intentions. 
History shows us that the fact that foreign countries and leaders are 
deterred, or show restraint today, is no guarantee they will behave the 
same way under crisis conditions.
    We need to ensure the effective fusion of intelligence community 
efforts, military planning, and civil defense and response planning. We 
should not leave any gap where the Department of Defense seriously 
plans for large-scale nuclear and biological attacks and civil 
Departments and Agencies focus on relatively lowlevel conventional 
explosives and limited chemical attacks.
    We need to be equally careful not to compartment our analysis of 
information warfare so that the Department worries about true 
information warfare while civil departments and agencies worry about 
hacking and cracking at much lower levels of threat.
    Finally, we need to consider the full implications of our call for 
missile defense, and of our counterproliferation activities. The more 
we succeed in blocking overt threats, the more we will drive states 
towards finding alternative means of attack. It makes little sense to 
close the barn door and leave the windows open.
    We need to focus on key areas of technological change. We cannot 
yet predict what technical capabilities hostile states, extremists and 
movements will acquire over the next 15-25 years. We can, however, 
predict that there are several major areas of technological change that 
can radically alter the effectiveness of asymmetric and terrorist 
attacks and which require care attention from the intelligence 
community:
<bullet> The vulnerability of our critical infrastructure is changing: 
        Our financial systems, communications systems, utilities, and 
        transportation nets are far more tightly integrated than in the 
        past, and we rely far more on national and regional systems, 
        rather than large autonomous local ones. This reduces 
        vulnerability in some ways, but increases vulnerability in 
        others. Systems netting and integration involves shifts in 
        technology that need careful examination.
<bullet> Information systems create new vulnerabilities: It is all too 
        possible to grossly over-exaggerate our dependency on 
        information systems, their vulnerability, and the difficulty in 
        finding work-grounds, and reconstituting critical systems. Many 
        statements are being made that have no real analytic 
        underpinning and the importance of given systems is poorly 
        researched. The Internet, in particular, is being glamorized to 
        the point of absurdity. Nevertheless, information systems have 
        become part of our critical infrastructure, and virtually 
        invisible cyberattacks may prove to be more lethal in some 
        cases than high explosives. New physical methods of attack, 
        such as EMP weapons, may also be becoming more practical.
<bullet> Chemical weapons and toxins are changing: It is impossible to 
        discuss fourth generation chemical weapons in an unclassified 
        forum, but the threat has been openly raised by Department of 
        Defense officials. The technology and equipment for older types 
        of chemical weapons is also proliferating at a civil level and 
        becoming steadily more available to governments, extremist 
        movements, and individuals.
<bullet> Biological weapons are changing: It has been possible to make 
        dry storable biological weapons with nuclear lethality since at 
        least the late 1950s. Advances in biotechnology, food 
        processing equipment, pharmaceuticals, and other dual-use 
        facilities and technologies are also proliferating at a civil 
        level and becoming steadily more available to governments, 
        extremist movements, and individuals. These problems are 
        compound by the rapid spread of expertise and equipment for 
        genetic engineering. The end result is that the technology of 
        attacks on humans, livestock, and crops is becoming steadily 
        more available, and in forms which not only can be extremely 
        lethal and/or costly, but difficult to attribute to a given 
        attacker.
<bullet> The availability of nuclear weapons may change: It is far too 
        soon to say that broad changes are taking place in the nuclear 
        threat. Nevertheless, the break up of the FSU, and 
        proliferation in India and Pakistan, does create a growing risk 
        that fissile material may become more available for ``dirty'' 
        and low yield weapons, and the knowledge of how to make crude 
        nuclear devices, handle the high explosives, provide neutron 
        initiators, and deal with the complex triggering problems is 
        also spreading.
<bullet> The risk from radiological weapons may change: Radiological 
        weapons have not been particularly attractive options in the 
        past. There is, however, a steadily growing mass of nuclear 
        waste, and some studies indicate that the long-term genetic 
        effects of such weapons may be more serious than their short-
        term effects.
<bullet> The ability to exploit the media and psychological dimension 
        of new technologies has grown: Far more is involved than body 
        counts, physical damage, and economic loss. Even the most 
        limited CBRN or information attack on the US or US targets has 
        great political and psychological impact both within the US and 
        overseas. The spread of mass communications, and use of tools 
        like the Internet and Satellite TV, also increases the impact 
        of attacks. It is all too easy to exaggerate today's threat in 
        each of these areas, but it is equally easy to exaggerate the 
        difficulties that individual terrorist movements and extremists 
        now face in using such technologies. There is a clear need to 
        examine how states can use such weapons covertly or through 
        proxies, and forecast how widely spread each of these threats 
        is likely to become in the future.
    We need to reexamine the problem of vulnerability. We cannot hope 
to accurate predict our attacker or their means of attack, but we can 
do much to improve our analysis of vulnerability and shape our 
intelligence and planning effort around the need to detect threats to 
our greatest vulnerabilities. To be specific, there are several areas 
of vulnerability that need special attention:
<bullet> We need to conduct and systematically update our analysis of 
        the vulnerability of our critical infrastructure, including 
        financial systems, information systems, communications systems, 
        utilities, and transportation nets and make sure our 
        intelligence can focus on potential threats.
<bullet> We need to reexamine our vulnerability to the chemical threat 
        in the light of fourth generation weapons, and the growing ease 
        with which states, extremists, and terrorists can obtain them.
<bullet> We need to rethink the risk of biological attack: We need to 
        look beyond the risk of the limited use of crude, long-known 
        weapons and toxins, and assess the extent to which genetic 
        weapons are increasing our vulnerabilities. We also need to 
        look beyond single agent non-infectious attacks on human 
        beings, and consider multiple agent attacks, infectious 
        attacks, and/or attacks on our agriculture.
<bullet> We need to reconsider the cumulative risk of covert or 
        terrorist nuclear attack: It still seems unlikely that any 
        state or terrorist movement could both acquire a nuclear device 
        in the near future, and be willing to take the risk of using 
        it. The cumulative risk over time, however, is sufficiently 
        great to justify more analysis of our key vulnerabilities.
    It is important to note that the US intelligence community and 
Department of Defense is already addressing many of these issues, as is 
the National Security Council and a broader federal Homeland defense 
effort. At the same time, these are all areas where Congressional 
oversight can play a major role in assessing the quality of the 
intelligence effort and the broader effort within the Executive Branch.
                     other problems in intelligence
    Let me close with several comments focused on the problem of 
intelligence coverage of terrorism and asymmetric warfare. It has been 
some years since I was directly involved in intelligence planning and 
assessment, but there are some things that never seem to change:
<bullet> It is far easier to call for strategic warning than to get it, 
        or get policymakers to, act on it of they do receive it. We can 
        always improve our analysis of warning indicators. In fact, the 
        intelligence community does this all the time. We cannot, 
        however, count on any method of analysis sorting through the 
        constant ``noise level'' in these indicators and providing 
        reliable probability analysis or warning. Furthermore, we 
        cannot count on policymakers reacting.
<bullet> We should improve our analysis, but no system of warning, 
        defense, and response can rely on strategic warning. Moreover, 
        it is my impression that even when the intelligence community 
        does make improvements, decision-makers choose to ignore 
        unpopular or expensive warning or demand that the community 
        free them from the burden of ambiguity and uncertainty.
<bullet> It is always easy for decision-makers to demand prophecy and 
        attack intelligence analysis when they don't get it. This may 
        explain why there are so many calls for improved strategic 
        warning and so few calls for improved decision-maker response.
<bullet> It is far easier to call for better HUMINT than it is to get 
        it. I have listened to three decades of calls for improved 
        human intelligence. In practice, however, it remains as 
        underfunded as ever, and partly because it is so difficult to 
        make cost-effective investments and to be sure they pay off. 
        Far too often, successes are matters of chance and not of the 
        scale of effort.
<bullet> Yes, we should improve HUMINT--where we can show there is a 
        feasible plan and a cost-effective path for success. However, 
        calling for improved HUMINT all too often is both a confession 
        of the severe limits of National Technical Means and a 
        substitute for serious planning and effort.
<bullet> New intelligence toys are not new systems, and systems always 
        have limitations. The other side of this coin is that we 
        probably face growing limitations in our imagery and signals 
        intelligence capabilities in many of the areas that affect our 
        vulnerability to asymmetric warfare and terrorism. These are 
        not a problem that should be addressed in open testimony, nor 
        can I claim that my background in these issues is up-to-date. 
        However, it is far from clear that some of the extremely 
        expensive improvements we plan in National Technical Means will 
        really pay off in the areas we are discussing today, or that 
        some of the new tactical detectors and sensors being developed 
        are integrated into effective systems. There may well be a need 
        for independent net intelligence assessment of our probable 
        future capabilities in these areas.
<bullet> We need more focus on weaponization, weapons effects, and 
        different kinds of vulnerability. Proliferation and changes in 
        information warfare are creating major new challenges in how 
        the community should assess the weapons available to state and 
        extremist actors. This is particularly true of biotechnology 
        and information warfare, but it also involves the risk of 
        ``dirty,'' unsafe, and unpredictable nuclear weapons. Most 
        weapons effects analysis is badly dated, and related to use 
        against military targets. Weaponization analysis often does not 
        address the acute uncertainty that may occur in weapons 
        effects, and most vulnerability analysis is now dated. The 
        technical issues of what attackers can , really do, the problem 
        intelligence may face in characterizing their resources, and 
        the risk of combinations of new methods of attack--combining 
        information systems and CBRN attacks, cocktails of biological 
        weapons, etc. needs more attention.
<bullet> We need an effective bridge between foreign intelligence and 
        law enforcement that responds to the scale of the emergency. We 
        now have a wide range of barriers between foreign intelligence 
        collection, surveillance of US citizens and activities within 
        the US, military operations, and law enforcement activities. In 
        general, these involve useful and necessary protections of 
        American civil liberties. If, however, the threat rises to the 
        level of a tangible risk an attack may use effective biological 
        weapons, use nuclear weapons, or cripple our critical 
        infrastructure, we need some way to react to a true national 
        emergency that eliminates as many of these barriers as 
        possible, and which does so at the state and local level and 
        not just the federal one. We have long talked about the need 
        for the ``fusion'' of intelligence and operations in 
        warfighting. We may well face a similar need in Homeland 
        defense, and the ``fusion'' of foreign intelligence and law 
        enforcement activity will be critical.
    One final point. Whenever new threats emerge, there is a natural 
tendency to call for new organizations, czars, and interagency 
structures. It is far easier to say that a new organization is needed 
than to get into the nitty gritty of actually having to improve 
existing capabilities or develop new ones. A set of problems involving 
this many uncertainties and new skills may or may not require new 
federal organizations, and new organizations within the intelligence 
community,
    Ultimately, however, what improving our capability to deal with 
terrorism and asymmetric warfare requires most is resources and 
improving collection, analysis, and fusion at sophisticated technical 
levels. The real issue is one of how to improve depth, give the 
community the right perspective, and how to improve ``quality,'' and 
not how to change organization or leadership. This requires both 
serious planning and a serious program and supporting budget. Changing 
the name on the door is almost mindlessly easy, but changing the 
capability within is what counts.

    Chairman Kyl. Thank you very much.
    Dr. Alexander?

   STATEMENT OF YONAH ALEXANDER, SENIOR FELLOW AND DIRECTOR, 
 INTERNATIONAL CENTER FOR TERRORISM STUDIES, POTOMAC INSTITUTE 
            FOR POLICY STUDIES, ARLINGTON, VIRGINIA

    Mr. Alexander. Thank you, Mr. Chairman. I appreciate the 
opportunity to appear today before this subcommittee. My only 
regret is that I don't have a written paper because I was out 
of town. But with your permission, I would like to submit a 
formal paper at a later date.
    Chairman Kyl. Absolutely.
    Mr. Alexander. In addition to that, I would like to mention 
that as an academician who works at a think tank and at a 
university center for terrorism studies, we have a great deal 
of publications that we would like to report to you about and 
to share with your staff, such as the new publication on Bin 
Ladin, on cyber terrorism, on super-terrorism, American 
perspectives, and so on and so forth. If we may submit them to 
your staff, we would certainly appreciate that.
    My intention basically is to make some preliminary remarks 
related to the threat and response. I fully agree with Tony 
Cordesman on some of the points he made because I think, No. 1, 
we have to learn lessons at history and look specifically at 
the nature of the threat. Now, we are discussing super-
terrorism, biological, chemical, nuclear, cyber, but I would 
like to submit that even a very primitive kind of terrorism 
works and it is attractive, it is effective, and achieves a 
number of results.
    We can go all the way back to the first century or to the 
11th and 12th centuries, the Middle East, when they used 
primitive methods, but they were able to intimidate the 
Crusaders, for example, in the Middle East. So I think there 
are some lessons from history that we can take into account.
    If we look at the situation today, obviously when we talk 
about contemporary terrorism, we talk about the new scale of 
violence both in terms of threats and responses. We are 
discussing the internationalization and brutalization of modern 
terrorism which actually is developing a new age of terrorism 
and super-terrorism with very serious implications for 
national, regional, and global security concerns.
    I would like to underscore specifically about five dangers 
that we have to take into account. One danger is to the safety 
and welfare and rights of ordinary people. The second danger is 
to the stability of the state system the way we know it. The 
third is to the health of economic development. The fourth is 
to the expansion of democracy, and the fifth perhaps to the 
survival of civilization. By that I mean the worst is yet to 
come; it is not if, but when. Therefore, ensuring the safety of 
the citizens at home and abroad will continue to be every 
government's paramount responsibility in the coming years.
    If I may look at the calendar of history, I would like to 
remind the Chairman and members of the Subcommittee that 30 
years ago there was a bombing right here in the U.S. Senate 
perpetrated by the Weather Underground. And then 13 years ago, 
in Iraq, we found that the Iraqis used chemical weapons against 
the Kurds. And 6 years ago, we had a glimpse of the future when 
the Aum Shinrikyo used sarin gas in Tokyo.
    Now, in 1995 I had the privilege, with my colleague Dr. Ray 
Klein from the Center for Strategic and International Studies, 
to prepare a study on state-sponsored terrorism for the 
Subcommittee on Security and Terrorism, chaired by Senator 
Jeremiah Denton. The question arises, what is new, and if you 
look at the situation in those days and the situation today, of 
course, at that time the Soviet Union perpetrated terrorism. 
Today, the Soviet Union is a victim of terrorism, as we have 
seen in the past few days.
    Nevertheless, I think we cannot dismiss state-sponsored 
terrorism in the coming months and years. Although there is a 
study of the CIA for the year 2015 indicating that the 
involvement of states is going to be reduced, nevertheless we 
have to take into account some states that can be labeled as 
failure states or states that are being exploited by the 
terrorists.
    So therefore what I am really suggesting is that we have to 
look at both state-sponsored terrorism and sub-state terrorism, 
the freelancers, those who are able to initiate terrorism at a 
very low cost and cause a great deal of damage to our society. 
Therefore, I think the international community, and 
particularly under the leadership of the United States, must 
take whatever steps are necessary in order to reduce the risks.
    Again, it is not a question of recommendations of 
committees and commissions. I know that some of us were 
involved over the years working with some of these groups. 
Nothing is wrong with specific recommendations. The problem is 
really implementation of the recommendations, and we have to 
move step by step, not dramatically or drastically change the 
system.
    Therefore, I think every segment of the community can play 
a role, not only the Government, not only Congress, but the 
community in general. And I refer to the media, I refer to 
religious organizations, to the educational structure, and so 
forth, and together I think we can defeat the terrorists and 
secure our value system.
    I will stop here and be open to questions.
    Chairman Kyl. Thank you very much.
    Both of you have commented on the need to concern ourselves 
with cyber attacks, and that seems to me to be a somewhat 
overlooked potential threat because it is not just against the 
Government, it is not just against our defense and national 
security capabilities, but also against the society at large, 
which then also has a spillover effect against national 
security.
    What, in your view, should the U.S. Congress be doing to 
enhance our ability to deal with this problem of cyber attack, 
especially if we are to, as you say, Dr. Cordesman, size it to 
the state-sponsored terrorism threat, because clearly that 
would be the ultimate degree of cyber attack even though it 
might be coming from some group far smaller than state-
sponsored? What could the Congress do to help begin to prepare 
us to deal with this threat?
    I will start with you, Dr. Cordesman, and then Dr. 
Alexander.
    Mr. Cordesman. Let me give one example. In the previous 
administration, John Hamre issued a directive in the Department 
of Defense that no critical system be hooked up to the 
Internet. One of the problems is that we right now are spending 
most of our critical infrastructure protection money trying to 
protect the software and entry into the systems, not to create 
systems which close out outside attack because they are truly 
critical. We, in general, do not have adequate standards.
    It has become clear, for example, that within the Federal 
Government no department as yet can police itself. To the 
extent there have been successful audits of cyber defense, they 
have been done by the General Accounting Office. And the moment 
the General Accounting Office does not repeat the audit, the 
department generally goes back to failing to protect its 
systems.
    But more than that, you do not see an effort to reduce 
vulnerability, to ensure that you can reconstitute the system 
rapidly, that if there is a really major and successful attack, 
there is some alternative. Now, this I suspect is going to 
require legislation and regulation. Departments are not going 
to spend money that is not appropriated and they are not going 
to perform functions with money that is appropriated unless 
they are required to.
    But the issue, I think, is broader than that. We can't 
provide any kind of warning or leak-proof system in cyber 
defense, and that means that critical industrial systems also 
have to be designed so that their vulnerability is limited, 
rather than trying to create firewalls or infinite layers of 
defense. There have to be backups. There have to be real 
tradeoffs where people understand that there is a liability for 
failing to protect these systems.
    At present, it is just the reverse. All of the market 
forces say that you do the absolute minimum here because there 
is no reward. You are not going to get more profit. Nobody is 
going to congratulate you until you come under attack, if then. 
Even insurance companies really are not regulated to require 
effective cyber protection or effective standards be met.
    Now, I hate to say that in any area the solution may be 
better law and better regulation, but here it is very difficult 
to see what market forces lead companies to prepare themselves 
unless there is a requirement that this be one of the rules of 
business.
    Chairman Kyl. So I take from that three basic 
recommendations: greater development of separate systems which 
are not tied to the Internet, a regulatory environment in which 
insurance would drive the hardening of these sites, and an 
ability to reconstitute systems immediately, with perhaps some 
Federal legislation and appropriate to achieve that.
    Mr. Cordesman. Senator, I would add one more. I think it is 
absolutely critical that you honestly assess vulnerability. In 
a lot of cases today, people confuse the noise level of cyber 
attack with something serious, or the fact that cyber crime has 
replaced conventional crime is somehow seen as if this was a 
national threat. ell, criminals will always be with us, systems 
will always fail, and teenagers will always be teenagers.
    We have not sorted out real vulnerabilities from the noise 
level of technological change. A good example is what happens 
every time there is a new virus. Somebody costs it several 
hundred million dollars, and this gets into the papers and 
everybody repeats the figure. But virtually all the time, when 
you really look at it, there was almost no economic cost; 
people did business the next day. This gross exaggeration of 
low-level threats and indifference to the issue as serious 
information warfare is as much of the problem.
    Chairman Kyl. Thank you.
    Dr. Alexander?
    Mr. Alexander. I think fundamentally it is really the 
question of perception of the threat, because here we are 
talking about the blessing of the Internet to connect the 
entire world. On the other hand, unfortunately, it is also a 
curse, as we know, used by terrorists as propaganda and 
psychological warfare. It is used to communicate messages and 
to train people how to make bombs--in fact, one doesn't need to 
go to a training camp because he can get all the information on 
the Internet--and then for operational missions, as we have 
seen time and again.
    Now, the question is really now can you strike a balance 
between the security concerns and civil liberties. I think this 
is a very important issue, and therefore there is a need not 
only for Government--we are talking about the role of Congress 
or the role of the Pentagon to stop the penetrations, and so on 
and so forth--I would like to submit that this is really a 
partnership of the Government and industry and academics and 
the public in general, because each segment of the community 
has a stake in this particular issue.
    Again, it comes back to the question of perception because 
the American people today, I think, are confused about what is 
terrorism. Is it a criminal act? Is it low-intensity conflict? 
Is it an asymmetrical threat? Is it all-out war? If it is war, 
there are certain legal consequences, and people would be 
willing to forgo some civil liberties if the United States is 
at war.
    So I think the first step is to put our act together in 
terms of a coherent definition of what terrorism is and to 
communicate that definition to the American public, to our 
friends, allies and adversaries, so there should be no mistake 
about where the United States stands on terrorism, and then to 
deal with the different kinds of threats--the biological, the 
chemical, the nuclear, the super. In fact, terrorists are today 
discussing even space terrorism. Looking ahead, what can they 
do in order to exploit space.
    Therefore, I think we have to deal not only with the 
technology, but with the psychology and the mind set.
    Chairman Kyl. While Senator Feinstein is catching her 
breath here, let me just pursue this line of questioning and 
then we will join in together, if that is all right.
    Let me get a little bit more specific, Dr. Cordesman, about 
your recommendation regarding insurance. It has seemed to me 
that while the U.S. Government could require that certain 
systems be separate and totally apart from the Internet--and, 
in fact, some are, and we could encourage perhaps some in 
academia or the private sector to develop systems that are 
similarly unconnected to the Internet and therefore far less 
vulnerable--that there is a great deal of commercial or 
industrial or non-governmental activity that nevertheless 
affects the Government.
    Our transportation grid, our communications system, the 
energy grid, the financial systems--all of those things are 
interconnected for commercial reasons, and I too have been 
concerned about the lack of robustness to these. I had thought 
that perhaps losses occasioned by cyber attacks would result in 
liability determinations. The evolution of the law would create 
the rules. Insurance would provide the enforcement of those 
rules--insurance and, of course, legal decisions--and that 
would force the robustness.
    I am not sure, however, that it would necessarily protect 
against the loss to Government, the loss of capability that 
would impact on our National security from a governmental point 
of view.
    How do you see this evolution, and is this the area in 
which you see some role for governmental regulation?
    Mr. Cordesman. Well, Senator, let me first address the word 
``Internet.'' It is very popular, it is a wonderful toy, and it 
actually has a great deal of substantive use. But the fact is 
most critical systems shouldn't be on the Internet; useful 
systems should be. And if useful systems are reconstituted 
three or 4 days later, it really doesn't matter very much. 
Nobody dies, the economy doesn't fail.
    So I think we have to make a clear distinction between 
those systems and systems, for example, like the functioning of 
the stock market or, as you mentioned, control of air traffic 
or major water systems or utility grids, most of which frankly 
should be off the Internet in any case.
    Now, liability is an issue, but I think waiting for 
liability to happen is the kind of process that says you go 
into court after the problem has already occurred. So I would 
suggest a very narrow focus. I don't think that we need to 
regulate the Internet. What we need to do is to identify and 
regulate a very narrow range of critical systems, and the 
answer may not be the same in each case.
    Sometimes it can be liability, sometimes it will have to be 
redundancy. In some cases, it will be systems which degrade 
gracefully and have backup. But we really don't have an 
ordered, structured approach to that problem either within the 
Government or within American industry, or for that matter on a 
global economic basis yet. And I think we have to begin by 
analyzing what is critical to protect and then find the measure 
tailored to the system rather than having one solution that 
fits all problems.
    Chairman Kyl. I appreciate that response.
    Mr. Alexander, anything else on that point?
    Mr. Alexander. Well, just a footnote. I would say that this 
is one area where I think international cooperation is feasible 
because it affects everyone, and therefore we have to start 
step by step. I know some countries are trying to develop all 
kinds of structures to deal with the protection of sensitive 
information, for example, and so on. So it is not just a 
question of the United States; it is a regional problem and a 
global problem. And I think this is one way that I think we can 
get consensus.
    Chairman Kyl. Thank you very much.
    Senator Feinstein has joined us and I will call on her now 
to make any kind of statement she would like to make or jump 
right in with the questioning of our second panel.

  STATEMENT OF HON. DIANNE FEINSTEIN, A U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Senator Feinstein. Thanks, Mr. Chairman, very much for 
holding the hearing. I think I will just put my statement in 
the record, if I may, and ask these questions.
    It is my understanding from what I have seen that our 
Government has not clearly designated who would be in charge in 
responding to a terrorist incident. In a recent GAO report on 
counterterrorism policy in Canada, France, Germany, Israel, the 
UK, and the U.S., the United States was the only one of these 
countries that lacked a clear chain of command in response to a 
terrorist incident.
    Are you concerned about this, and what should that chain of 
command, in your view, be?
    Mr. Cordesman. If I may begin, Senator, I think in theory 
there is a chain of command. The problem is that it is too 
complex. We have a division--
    Senator Feinstein. Did you say it is too complex?
    Mr. Cordesman. That is right. I mean, basically speaking, 
first if it is a low-level incident, to be perfectly honest, we 
have so many natural catastrophes and accidents that it isn't a 
stress on the system. But if we get a really large-scale 
terrorist attack that produces mass casualties, then all of a 
sudden the FBI and FEMA are confronted, as Dr. Alexander 
mentioned, with an effect close to war.
    What happens then? Well, the system is simply not capable 
of responding at some central point to the complexity of the 
individual case. We have all kinds of lines of responsibility, 
but they won't work on a clear or timely basis.
    The separation between FEMA, which is understaffed, 
underfunded and not equipped to deal with the effects of large-
scale terrorism because it focuses on civil disasters--it 
simply is not ready. The FBI confronts the problems of foreign 
intelligence and State and local law enforcement, and let me 
note that the gaps there are as great as they are between the 
CIA and the FBI. It goes to the NSC, where the question of who 
is operational has to almost be improvised. If it is a really 
serious incident, the President has to be brought in.
    You mentioned response. One problem we have never really 
addressed is what happens if it is a biological incident, 
because the actual responders particularly to multiple 
incidents or more than one agent are all tailored to medical 
services and biological response. If it is high-explosive, it 
may be the National Guard that would be the proper group. If it 
is nuclear, biological experts are not the people who would 
have to deal with that case.
    We really have looked at this in Washington only from the 
top. We haven't looked at the consequences of different major 
acts of terrorism and how the chain of command and response 
would have to adapt.
    Let me just give you one simple example. In most places in 
the United States, in the winter, most hospital beds are 
occupied. Many hospitals are in urban areas. If you have a 
biological attack, not only do you immediately cause a total 
saturation of local and regional health care, but basically the 
attack often will cover the area where the care is supposed to 
be provided.
    Now, the Federal response to that is going to be to fly in 
emergency help to people who are, in general, supposed to meet 
that help at the airport. When it is FEMA or the FBI or some 
czar that is some czar that is in charge isn't going to help if 
that is the scenario.
    Senator Feinstein. From your study--let's say a building is 
blown up or a bus is blown up--who in the United States is 
immediately in charge of that incident, the top person?
    Mr. Cordesman. Well, the top person will be almost 
invariably, unless it is on a Federal facility, the mayor or 
the head of the local jurisdiction who will be responsible for 
coordinating local law enforcement, which will treat it as a 
criminal act, and for coordinating the emergency response.
    If it is on a Federal facility, for example, a military 
base, it would be the base commander. There will be all kinds 
of legal complications and they are going to spread out along 
with the response issues. If it is something like a water 
supply, however, which cuts across, say, State or 
jurisdictional boundaries, then the issue would be whoever is 
in charge of the individual utility or facility.
    But ultimately the first response always is local, and in 
the real world the authority level or chain of authority is 
local until Federal intervention or State intervention is 
required.
    Senator Feinstein. Well, let me respond. Having served as a 
mayor for 9 years in a form of government where the mayor was 
essentially in charge of the police department and the fire 
department and had the ability to ask for mutual aid, I am not 
sure as we go into more sophisticated types of terrorism that 
really having a mayor in charge is the best idea.
    It seems to me, once an attack happens whatever the scale, 
immediately the Federal Government has some responsibility and 
there should be somebody there from the Federal Government with 
respect to protecting the chain of evidence, and also doing 
whatever is necessary to aid in protection of the people. I 
don't think you can leave the response to sophisticated 
international terrorism in the hands of a mayor. We had talked 
before about having a response team that could go into an area.
    What would your recommendations be, Dr. Cordesman and Dr. 
Alexander?
    Mr. Cordesman. Everything depends on the size and nature of 
the incident. That ones that you mentioned initially are sort 
of conventional terrorism. Indeed, in the Federal Government 
planning tends to be for incidents where there are less than 
1,000 casualties because that is assumed to be the maximum 
worst case for practical planning. If it is biological or 
nuclear, of course, the attacks will be far larger.
    The moment that this extends beyond a localized single 
event, the moment it involves a weapon of mass destruction, you 
must be able to bring in Federal authority and law enforcement 
and certainly FEMA immediately. At any level involving, I would 
think, frankly, a nuclear event or a major biological event, I 
don't believe that the Congress will ever properly fund FEMA to 
respond and you will be forced to bring in the Department of 
Defense.
    That means that there must be somebody coordinating a 
tailored Federal response, and they have to begin hopefully 
within minutes of the ability to characterize the attack. Now, 
long before then, if it is international terrorism, one would 
have hoped that the kinds of issues discussed earlier, the 
cooperation between the CIA and FBI, would have improved to 
reduce the risk of incident.
    Senator Feinstein. Well, supposing the gentleman that tried 
to come across the Canadian border a couple of weeks before New 
Year's Eve 1999 was actually able to blow up something 
significant in Seattle, Washington, you are saying that that 
should be left up to the mayor to handle?
    Mr. Cordesman. No, I am not saying it should be left up to 
the mayor. You asked what the chain of responsibility was, and 
in practice the FBI would come in later. Now, the FBI would not 
have here a jurisdictional problem because it is clearly a 
foreign terrorist. It might take time to establish that.
    Depending on how the local jurisdiction handled the issue, 
you might get immediate, smooth cooperation between State, 
local, and Federal law enforcement. That is what I think would 
happen in any major case. But as you know, there are sometimes 
communities where that relationship does not always work out as 
it should.
    I would hope that the immediate action for any foreign 
terrorism would be what is called for under law because the FBI 
does have jurisdiction over acts of terrorism if they are 
defined as such, an issue which Dr. Alexander raised. 
Similarly, FEMA would have responsibility to assist State and 
local authorities immediately at the Federal level, depending 
on the size of the incident. But the critical issue you have 
raised is the size of the incident and what happens when local 
capabilities break down.
    Senator Feinstein. I just think in reality, having been 
there during a riot, it is very difficult. I happen to believe 
there ought to be someone in the Federal Government, that once 
a mayor presses a button or makes a phone call and expresses 
what kind of an attack it is, can immediately bring onto the 
scene whatever Federal reinforcements are available or helpful.
    The White Night riot, when the assassin of my predecessor 
as mayor and another supervisor was just given a very brief 
sentence and there was an explosion in the city and police cars 
were being blown up and buildings were being attacked with 
rocks, was a very difficult situation. It took a long time to 
get everybody together, and then finally I called the Governor 
to exercise mutual aid. It all takes time before you know 
exactly what you have.
    We became much more sophisticated about it after that, 
training police, how they work, all the details of it. But it 
is a little bit of a lesson to me that if you have, let's say, 
the Federal building blown up right next to city hall, you are 
into something entirely different and mutual aid isn't going to 
help very much. You are going to need immediate reinforcement. 
It may be military, it may be FBI. Some of it may be FEMA, but 
someone has got to make that decision, and make it quickly.
    I am coming to believe that there ought to be someone on a 
Federal level that a local jurisdiction is able to consult with 
immediately, 24 hours day, that is helpful in making the 
decisions as to who is alerted, who is brought in, what the 
time line is. I think that would become particularly more 
important in a biological or a chemical reaction.
    Mr. Alexander, would you like to comment?
    Mr. Alexander. Yes. Again, it comes, Senator, to the 
question of perception. Because the United States fortunately 
was not as victimized as some of the other countries that you 
mentioned, usually terrorism was looked upon as an irritant, a 
nuisance, something that will go away, very cyclical. So the 
culture was not there in terms of the concern of the people.
    Today, the situation is changing. As Senator Kyl mentioned, 
the United States is really target No. 1 abroad and we have had 
terrible tragedies in Oklahoma and elsewhere. So I think the 
American people are much more sensitive to the issue of 
terrorism, and if the public would try to get involved and 
cooperate with Congress on what is needed, what kinds of tools 
are necessary to deal with the problem in terms of policies, in 
terms of organizational structure, in terms of upgrading 
intelligence and strengthening law enforcement, for example, 
perhaps, Senator Feinstein, as mayor this wouldn't be your role 
to deal with a bioattack. Sometimes, you have to wait a couple 
of days before you know you are really under attack.
    Therefore, I think what this Subcommittee is doing and 
other committees in Congress is extremely useful. As you know, 
there are probably 80 Federal agencies involved in different 
aspects of terrorism, and therefore certainly it is like an 
orchestra without a conductor. I think something has to be done 
to coordinate many of these activities. Some work, some don't, 
and therefore I think we have to monitor the operations very, 
very closely. First, we must assess the nature of the threat in 
order to know what kinds of responses are really suitable at 
home and abroad.
    Senator Feinstein. If you are really going to look at this 
as a practical application, every mayor, at least in 
California, has different authorities. Some city councils 
rotate a city council person as mayor every year. Some are 
strong mayors, and some are very weak mayors who just don't 
have the control. Some frankly don't have the ability to cope 
with a terrorist incident. I think in this country we are wide 
open to chaos without the ability to really have somebody who 
is able to send out an immediate assessment team, make the 
assessment, and set into motion a chain of events.
    I am truly of the view, Mr. Chairman, that we really ought 
to write a big bill, a real reorganization of counterterrorism 
policy. We have been doing this now for 3 years, and we listen 
to report after report after report, all of which suggest that 
we are really unprepared. Even when we had our classified 
briefing a while ago, I didn't come out with a great sense of 
confidence that we were ready to respond to a terrorist event.
    It seems to me that there is a recommendation somewhere in 
this, and I can't remember where it is but I thought it made 
sense, and that is that each President really ought to come 
forward with a plan as to how the administration would approach 
this in terms of a chain of command, an instant response, 
emergency provisions, investigative needs, and military 
precautions. It might be something that we could request the 
administration to do.
    Chairman Kyl. I might just note that just before you 
arrived, Dr. Cordesman made the point that while planning is 
certainly necessary, the tendency might be for yet one more 
planning document, one more reorganization, all of which 
reshuffles the chairs on the deck. That is my analogy, not his, 
but it adds very little value to the response.
    I was going to follow up with a question that ties in 
directly with what you were just saying. Basically, what you 
want is a 911 for any kind of help that might be out there that 
the local group isn't immediately able to provide. If it is 
clearly a law enforcement kind of an attack and a conventional 
explosive blows up a building, the law enforcement people are 
going to be on the spot and they are going to be the ones who 
take charge. If, all of a sudden, everybody within a 10-block 
area is getting really sick from something, the health care 
people are going to come in and figure out that there is some 
kind of a problem.
    But in either event, if there is a 911 number at the 
Federal level that people can call to get whatever kind of help 
might be available and a general plan at the Federal level, it 
seems to me that that is one way of providing whatever kind of 
help might be available in a fairly efficient way. But I too 
would be skeptical of focusing our attention too much on 
reorganization, strategy documents, and the like. I am really 
interested in getting beyond that to the value-added components 
of dealing with terrorism as well.
    A response from either one of you to that comment would be 
appreciated.
    Mr. Cordesman. Let me give you, I think, a tangible 
example. Congress legislated that there be a document provided 
by OMB describing the programs that are currently underway. As 
far as I know, I have not talked to anybody who has held 
hearings on what we are actually spending the money on. It is 
$11.7 billion in the last fiscal year; $1.5 billion of it is 
dedicated to deal with the effects of weapons of mass 
destruction. It is spread out among 17 different groups.
    On paper, Senator, for example, there is a Biological 
Response Team. The problem is it may have 17 people and 2 
doctors in it, and I am not sure that is going to help any city 
on the West or East Coast in the event of a biological 
incident.
    I think that when you talk about organization, it is very 
important to have one person in charge, and there have been 
proposals putting it in the Office of the Vice President, 
having a Cabinet-level official, having someone on the order of 
the drug czar, putting the response elements in FEMA, and 
strengthening coordination within the FBI. I don't know which 
of these the President would prefer, but it is clear that you 
not only need someone to call, but somebody who can do 
something in response.
    My suggestion to you would be that the kind of examination 
which is already being made of where the Federal money is going 
needs very careful examination to see what really needs to be 
fixed. It is fairly obvious, looking at the numbers, that right 
now virtually all the money we spend is on improving Federal 
buildings and their resistance to high explosives. That is the 
one threat on which about $7 billion of the money has been 
going.
    I think as you look into this you are going to find there 
is no long-term planning. Agencies improvise and compete from 
year to year. In program after program, they don't know what 
they would have to spend to develop a real capability. 
Technologies are being funded, but nobody knows what system 
they would go into if they worked, whether they would really 
deal with the threat of future technology, or what they would 
cost to deploy and whether it would be a State, local, or 
Federal deployment that would be required.
    So we have one organizational study after another trying to 
figure out who it is that answers the telephone, but no review 
of Congress' traditional function, which is to look at where 
the money is really going and whether it is being spent to a 
purpose.
    Senator Feinstein. I have been brought up to believe that 
the primary role of government is to protect the people, and I 
really believe that. If I am mayor and something blows up, I 
want to maximize every resource I have as fast as I possibly 
can.
    I really agree with you, Dr. Cordesman. I think that 
domestic terrorism is something that is very appropriate to be 
part of the portfolio of either a Vice President or a Cabinet 
member. When a building has just blown up and the suspicions 
are that it is terrorism, I can pick up the phone and say we 
have got a major incident on our hands, we need help, we need 
it right now. I want a team that can come out and take a look 
at this situation, and also help us with A, B, C, D, and E.
    Californians pay more than $20 billion in taxes a year that 
they don't get back in services. It is not too much to ask that 
the Federal Government be able to provide counterterrorism 
assistance. Terrorism is increasing in this world, and we ought 
to be prepared for it. And to be prepared for it means that 
certain people have to be accountable to do certain things.
    I have been looking at this for 3 years. It is still 
unclear to me of who is really in charge of what, or where as a 
mayor I would go to get help. That is not clear; it is not 
clear out there anywhere in the United States. I think the time 
has come for us to try and make that clear to people.
    End of speech.
    Mr. Alexander. May I just make another footnote here? I 
fully agree with you. I wanted to call you mayor, Senator, in 
terms of your experience, and this is life. I mean, someone has 
to be on the front line and be able to save lives and minimize 
the threat.
    But I would like to submit to you that we have to see it in 
a broader perspective, not only in terms of what is happening 
in the United States but what is happening abroad. 
Particularly, I am talking about Americans and American 
citizens who are all over the world, as we know, about 10 
million of them at a time, and they need protection as well; of 
course, the military or the diplomats, and we have seen that.
    My concern is that we are not putting that together in 
terms of also the international protection. And recalling the 
tragedies that American servicemen went through for so many 
years, and I have seen some firsthand, I believe that we have 
to learn the lessons of the past; that is to say, the State 
Department after the attacks on the embassies in Kenya and 
Tanzania immediately tried to figure out what could they do to 
protect members of the State Department. So they instituted 
some measures both at the State Department right here in 
Washington as well as at embassies abroad. Then they started 
training against weapons of mass destruction, and so forth.
    But that particular action did not prevent the terrorists 
from attacking the U.S. Destroyer Cole and killing Americans on 
the ship. And this really means that there is a need somehow, 
No. 1, to strengthen the intelligence capability, the quality, 
in terms of human and technological to deal with future threats 
to Americans abroad, and also to work with like-minded nations 
to coordinate the activities.
    For example, Tony mentioned emergency medical preparedness. 
Not only in the United States are there not enough beds, but 
when we talk about the situation abroad and how to save those 
who are injured, if it takes about 12 hours to get some 
assistance, then it is too late.
    So what I am really suggesting is, Senator, that we have to 
see it as a comprehensive threat to the United States. It is 
not a nuisance, it is not an irritant. It is a national 
security threat, and therefore I think we have to mobilize all 
the capabilities and to look at the recommendations--some of 
them are really excellent--in terms of responsibility, in terms 
of organizational structure, and so on and so forth.
    If we are not going to do it, especially the United States 
as a super-power, as the leader of the Free World, if I may use 
this term, I really believe that we have a special 
responsibility to provide the leadership.
    Senator Feinstein. Thank you very much.
    Chairman Kyl. Let me just close with this question, since 
you raised the issue, Dr. Alexander, and in his written 
testimony Dr. Cordesman makes the same point. Obviously, you 
would like to try to thwart the terrorist incident in the first 
instance. Intelligence is key to that capability, and while we 
have some success with signals intelligence, human intelligence 
is the primary source of information that enables us to thwart 
terrorist attacks.
    Incidentally, for those in the audience who might be 
interested, we have had testimony each year for I think 3 years 
from the Director of the FBI that each year our intelligence 
agencies are able to thwart about a dozen major terrorist 
attacks through the use of good intelligence. These are very 
rarely made public. We know of the attacks that are successful, 
but we rarely hear about those that have been prevented through 
good intelligence and there are a number of them.
    Dr. Cordesman, you specifically testified that human 
intelligence is underfunded and that it is critical to this 
effort. Why do you think it is so underfunded, and what can we 
do?
    Since both of us also serve on the Intelligence Committee, 
even though that is not directly related to the Judiciary 
Committee, the intelligence-sharing questions do arise. In any 
event, we are all interested in the subject.
    How can we better fund our human intelligence?
    Mr. Cordesman. Well, I was saying to one of your staff, 
Senator, that several centuries ago I was the Director of 
Intelligence Assessment in the Office of the Secretary of 
Defense, and the Congress decided it would be a good idea to 
recommend an increase in human intelligence resources and 1 
year later we were having RIFs.
    In general, any time anybody in Congress seems to propose 
this--I am not sure there is a cause and effect relationship--
the resources end up mysteriously being cut. So I have to be 
very careful about what I say here.
    I think frankly you have, in general, a very effective 
intelligence community. We always underfund the human dimension 
and the analytic dimension, and we always tend to put lots of 
money into national technical means. I am not sure there are 
any savings to be made in national technical means, and it is 
not glamorous to say that you simply give people in the 
community more resources to plus-up the capabilities they 
already have. But I think that is part of the problem that 
everybody wants to reorganize or make it more efficient, but 
they don't want to spend more money in a focused way where it 
is really needed.
    I think, too, you need to be very cautious because human 
intelligence, as you know, is often defined as collection; it 
is getting more sources overseas. Dr. Alexander mentioned the 
need for better international cooperation. There is a need to 
put a lot more money into the analysis side, areas like data 
mining, areas which get around the unreliability of defectors 
and the inability to penetrate inside terrorist nets.
    It takes a lot of time to develop a real expert on 
terrorism or on any given method of attack. And with new 
technologies like biological weapons and other methods, we tend 
to put people into growing sections in the community, but if 
they are not out or promoted in 3 years, it is a career killer, 
and that problem has been going on for decades.
    So I think what you need to do is look in-depth at what is 
going on inside the intelligence community, figure out 
precisely what existing elements can be strengthened, and 
ensure that the money really goes to analysis in human 
intelligence and not to more managers or more coordination. In 
general, I believe the intelligence community is capable of 
greatly expanding its capabilities if somebody will be patient 
enough and realistic enough to give them the money they need.
    Chairman Kyl. I might add that as long as the intelligence 
funding is a percentage function of the Defense budget, there 
is an inherent arbitrary limitations on what can be devoted to 
intelligence-gathering.
    Mr. Alexander. If I may, Senator, I think that clearly is a 
very important issue. The other issue that I would like to 
suggest--and it was raised in some of the commission reports, 
the National Commission on Terrorism, Ambassador Bremer, and so 
forth--there are certain legal constraints on the capability of 
the agencies to function.
    If we want them to do the job, we have to give them the 
tools to do it within the framework of law, of course. But if 
there are too many regulations and constraints even to recruit 
someone from a terrorist group to work with us--this is not 
someone would like to have dinner with, but nevertheless we 
need information and information can save lives. So really this 
is the question of the perception of the threat.
    I would like to suggest that today, since we do have a 
trend of loose international networks like the Bin Ladin 
structure that can operate in some 55 countries around the 
world and mobilize people in order to strike against the United 
States, which is really target No. 1, the intelligence 
community, as we know, time and again is the first line of 
defense. And if they don't have the tools, it would be similar 
to taking away the tools from the police at the local level or 
the State level.
    So therefore I think the American people have to consider 
the nature of the threat and, if the threat is really imminent, 
to do whatever is necessary, and particularly to support the 
intelligence community.
    Chairman Kyl. I thank you very much for those views. 
Obviously, some of these comments would perhaps do a little 
more good if they were heard by some of our other colleagues 
who aren't here. In Senator Feinstein and I, you have two 
people who are obviously committed to trying to get some help.
    We will try to put together the three different reports 
that have been issued within the last 12 months or so, finding 
the common areas for recommendations that we can at least agree 
upon, and without suggesting that all of this is legislative in 
nature, at least pull those things together that do require 
some legislative action and put it into a draft bill.
    We would like to submit that to you for your review so you 
can give us your feedback on whether we are on the right track 
from your point of view, and then we are going to try to run 
that through the House and Senate this year. If you have any 
further recommendations for us, we would be happy to receive 
those, as I said at the outset of the hearing. Though we are 
not joined by a lot of our colleagues here today, we will share 
the information that we can summarize from this hearing with 
them in an effort to try to get their support as well.
    I very much appreciate your testimony today, and look 
forward to your continued evaluation of our product and your 
advice as we move forward. Thank you very much.
    This hearing is adjourned.
    [Whereupon, at 3:50 p.m., the Subcommittee was adjourned.]


</pre></body></html>
